      Followup Review                                  August 31, 2009

                Defense Contract Audit Agency
              Audit Work Deficiencies and Abusive
              Work Environment Identified by the
               Government Accountability Office

                       Report No. D-2009-6-009

                                          Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the approval of
the Department of Defense, Office of Inspector General.”
   Additional Copies

   To obtain additional copies of this report, visit the Web site of the Department of Defense
   Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant Inspector
   General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703)
   604-8982.

   Suggestions for Future Reviews

   To suggest ideas for or to request future reviews, contact the Office of the Assistant
   Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
   fax (703) 604-8982. Ideas and requests can also be mailed to:


                            Office of the Assistant Inspector General
                                 for Audit Policy and Oversight
                            Department of Defense Inspector General
                              400 Army Navy Drive (Room 837)
                                   Arlington, VA 22202-4704




Acronyms
CAS                    Cost Accounting Standards
DCAA                   Defense Contract Audit Agency
DCMA                   Defense Contract Management Agency
EELV                   Evolved Expendable Launch Vehicle
FAO                    Field Audit Office
GAGAS                  Generally Accepted Government Auditing Standards
GAO                    Government Accountability Office
PM&HS                  Program Management and Hardware Support
RAM                    Regional Audit Manager
SMC                    Air Force Space and Missile Systems Center


                             FOR OFFICIAL USE ONLY
MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
               COMMANDER, AIR FORCE SPACE AND MISSILES
                 SYSTEMS CENTER

SUBJECT: Followup Review on Defense Contract Audit Agency Audit Work
         Deficiencies and Abusive Work Environment Identified by the Government
         Accountability Office (Report No. D-2009-6-009)

        We are providing this report for your review and comment. We received requests for
this review from the Chairman and Ranking Member of the Senate Committee on Armed
Services and the Under Secretary of Defense (Comptroller)/Chief Financial Officer. We
considered management comments on a draft of this report when preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Air Force Space and Missile Systems Center and the Defense Contract Management Agency
comments were responsive. The Defense Contract Audit Agency comments were partially
responsive. As a result of management comments, we added Recommendation D.4 to the
Director, Defense Contract Audit Agency. We request additional comments on
Recommendations B.1.a, D.1, D.2, D.3 and D.4 by September 30, 2009.

        Please provide comments that conform to the requirements of DoD Directive 7650.3.
If possible, send management comments in electronic format (Adobe Acrobat file only).
Copies of the management comments must contain the actual signature of the authorizing
official. We cannot accept the / Signed / symbol in place of the actual signature.

       We appreciate the courtesies extended to the staff. Questions should be directed to
                                                                                    .



                                             Charles W. Beardall
                                            Deputy Inspector General
                                            for Policy and Oversight




                           FOR OFFICIAL USE ONLY
Table of Contents
Results in Brief                                                               i

Introduction
   Objective                                                                   1

   Background                                                                  1

   Defense Contract Audit Agency                                               1

   Generally Accepted Government Auditing Standards                            3

Findings
   A. Work Environment                                                         4

   B. Continuing Audit Issues with Contractor A
      Related to a 2006 DCAA Proposal Audit
      (Evolved Expendable Launch Vehicle) (GAO Case 2)                        13

   C. Audits of Defective Pricing on Freight-out Charges (GAO Case 3)         29

   D. Audit of Billing System (GAO Case 4)                                    35

   E. Forward Pricing Audits (GAO Case 8)                                     40

   F. Audit of Compensation System (GAO Case 9)                               44
   G. Audit of Purchasing System (GAO Case 10)                                46

   H. DCAA Audit of Billing System (GAO Case 11)                              48

   I. Labor Floor Check (GAO Case 12)                                         52


Appendixes
   A. Scope and Methodology                                                   55

   B. Prior Coverage                                                          56

   C. DCAA-Wide Corrective Actions                                            57

   D. DCAA Corrective Actions for Specific Cases (GAO Cases 1, 5-7, and 13)   61

   E. Senate Request                                                          64

                          FOR OFFICIAL USE ONLY
  F. Answers to Senate Committee on Armed Services Questions   66


Management Comments
  Defense Contract Audit Agency                                69

  Department of Air Force Headquarters
    Space & Missile Systems Center                             81

  Defense Contract Management Agency                           88




                         FOR OFFICIAL USE ONLY
              Followup Review on Audit Work Deficiencies
              and Abusive Work Environment Identified by
              the Government Accountability Office Report
                                                     insufficient evidence to support a purchasing
Results In Brief                                     system audit opinion (Case 10). DCAA did
                                                     not have sufficient basis for dropping four
What We Did                                          findings (Case 11). DCAA did not report a
                                                     contractor’s     uncompensated       overtime
We reviewed Defense Contract Audit                   practice and increased the risk of cost
Agency (DCAA) audit documentation and                mischarging (Case 12).
interviewed auditors for the 13 cases at the
3 DCAA Western Region Field Audit                    What We Recommend
Offices identified in the Government
Accountability Office (GAO) report “DCAA
                                                     We recommended that DCAA rescind
AUDITS: Allegations That Certain Audits
                                                     five audit reports and notify contracting
at Three Locations Did Not Meet
                                                     officials not to place reliance on the reports’
Professional Standards Were Substantiated.”
                                                     conclusions. We also recommended that
We also reviewed current audits replacing
                                                     DCAA address management actions and
deficient audits identified by GAO. We
                                                     behaviors that have a negative impact on the
visited 2 DCAA Western Region field audit
                                                     work environment.           Additionally, we
offices and interviewed 68 audit employees,
                                                     recommended that DCAA create a
including supervisors and managers, to
                                                     mechanism        for     reporting      external
assess    whether     an    abusive    work
                                                     impairments to auditor independence in the
environment existed.
                                                     DCAA Contract Audit Manual (Case 2).
                                                     We recommended that the Commander, Air
What We Found                                        Force Space and Missiles Systems Center
                                                     suspend future payments for certain
Employee concerns with (1) time pressures,           unabsorbed costs on the affected contract
(2) uncompensated overtime, (3) changes to           and that the Executive Director, Contracts,
audit     results   and     opinions,     and        Defense Contract Management Agency,
(4) unprofessional behavior created a work           reassess the identified advance agreements
environment not conducive to performing              pending receipt of newly initiated DCAA
quality audits. Additionally, we found a             audits (Case 2).       We made additional
flawed audit may have allowed a contractor           recommendations to improve DCAA audits
to recover $271 million in unallowable costs         in relation to Cases 3, 4, 8, 9, 11, and 12.
(Case 2). DCAA provided ineffective audit
advice and services to a contracting officer         Management Comments
(Case 3). DCAA has insufficient evidence
to support a contractor’s participation in the
direct bill program (Case 4). Seventeen of           DCAA concurred with 22 of 24
18 forward pricing audits did not comply             recommendations, concurred in principle on
with standards (Case 8). DCAA did not                1 recommendation, and reserved comment
adequately qualify the audit results on a            on 1 recommendation. We request that the
compensation system (Case 9). DCAA had               DCAA reconsider its position on the

                                                 i
                             FOR OFFICIAL USE ONLY
recommendation (B.1.a) to rescind DCAA
Audit Report No. 4461-2006A210000001,
dated May 8, 2006, and comment on it in
response to this final report. We also
request that DCAA reconsider its responses
to recommendations D.1, D.2, and D.3,
which did not meet the intent of the
recommendations, and comment on them in
the final report. Additionally, the proposed
revision to the DCAA policy on the direct
bill program is not sufficient to ensure that
only nonmajor contractors with approved
billing systems participate in the direct bill
program.      Therefore we have added
recommendation D.4 and DCAA should also
comment on it. The Air Force Space and
Missile Systems Center concurred with
recommendations B.2.a and b. The Defense
Contract Management Agency concurred
with recommendations B.3.a and B.3.b.

         United States Department of Defense
             Office of Inspector General
         Project No. D2008-DIP0AC-0259.000
               Report No. D-2009-6-009
                   August 31, 2009




                                                 ii
                                   FOR OFFICIAL USE ONLY
                                         Introduction
Objective
We conducted this review to followup on audit work deficiencies identified at three Defense
Contract Audit Agency (DCAA) Western Region field audit offices (FAOs) and abusive work
environment issues identified at two DCAA Western Region FAOs by the Government
Accountability Office (GAO). We also followed up on our prior oversight work performed
under Project No. D2006-DIP0AC-0229, “Review of Audit Assignments Related to Defense
Hotline Complaint No. 98871 Concerning Audit Issues at the Defense Contract Audit Agency,”
discussed in our memorandum dated January 24, 2007. We evaluated whether DCAA completed
and planned actions fully address the GAO concerns and whether the actions are sufficient to
correct the identified deficiencies. In the future, we will followup on DCAA corrective actions.

Background
In November 2005, the DoD Hotline received a complaint alleging that 10 audits issued by a
DCAA Western Region FAO did not comply with generally accepted government auditing
standards (GAGAS). Because of the nature of the allegations, the complaint was referred to the
DoD Inspector General, Defense Criminal Investigative Service for review. We assisted the
Defense Criminal Investigative Service in reviewing the allegations involving the 10 audits and
issued a memorandum dated January 24, 2007, to them on the results of the review.
On July 22, 2008, the GAO issued report GAO-08-0857 entitled, “Allegations That Certain
Audits at Three Locations Did Not Meet Professional Standards Were Substantiated.” 1 GAO
reported on 13 cases involving 76 2 audits that did not comply with GAGAS. Further, GAO
reported that an abusive work environment existed at two FAOs. The 13 GAO cases included
the 10 audits that we previously reviewed.
In July 2008, the Senate Committee on Armed Services and the Under Secretary of Defense
(Comptroller)/Chief Financial Officer requested that we review the GAO identified work
deficiencies and the DCAA completed and planned actions taken in response to the GAO report.
Appendix F provides specific responses to the Senate Committee’s questions.

Defense Contract Audit Agency
DoD Directive 5105.36, “Defense Contract Audit Agency,” established DCAA as a separate
organization under the direction, authority, and control of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer. The primary mission of DCAA is to perform contract
audits for DoD. DCAA also provides accounting and financial advisory services regarding

1
  Of the 13 cases, Location 3 had 1 case, Location 1 had 2 cases, and Location 2 had 10 cases. In FYs 2004-2006,
Location 2 performed 1,256 audit assignments, for an average of 418 assignments per year.
2
  Case 3 involved 3 defective pricing audits (Finding C); Case 8 involved 62 forward pricing audits (Finding E); and
the other 11 cases covered 1 audit each.
                                                         1
                                  FOR OFFICIAL USE ONLY
contracts and subcontracts to DoD Components that perform procurement and contract
administration duties. In addition, DCAA performs contract audit services for non-DoD Federal
organizations on a reimbursable basis.

        DCAA Organization and Functions. In FY 2008, DCAA performed 30,352 audits
involving examination of approximately $458 billion. At present, DCAA consists of
approximately 4,000 people located in approximately 95 FAOs throughout the United States,
Europe, the Pacific, and Southwest Asia. The agency consists of a Headquarters, five regions,
and the Field Detachment (for classified audits). Regional directors are responsible for planning,
managing, and accomplishing the agency mission in assigned geographical areas to include
managing personnel and resources in their individual regional offices and various FAOs within
their regions. The Field Detachment director has the same responsibility for worldwide DCAA
contract audits of compartmented programs and the personnel and resources assigned to the Field
Detachment.

DCAA audits help determine adequacy of contractors’ estimating, budgeting, billing, and
accounting systems; compliance with the cost accounting standards (CAS) and disclosed
accounting practices; and allowability of incurred costs charged to the Government in
accordance with the Federal Acquisition Regulations and the Defense Federal Acquisition
Regulation Supplement. DCAA also audits forward pricing proposals 3 , estimates of cost and
profit supporting price proposals submitted by contractors in connection with award, and
administration, modification, or repricing of Government contracts.
Consistent with the GAO report, we use, throughout this report, the case 4 numbers, and
contractor 5 and location identifiers as indicated in the table below.

                          Table 1. Contractors and DCAA FAOs by Case Number
                    Case 1                       Contractor A*                      Location 1
                    Case 2                       Contractor A*                      Location 1
                    Case 3                       Contractor B                       Location 2
                    Case 4                       Contractor C                       Location 2
                    Case 5                       Contractor C                       Location 2
                    Case 6                       Contractor D                       Location 2
                    Case 7                       Contractor D                       Location 2
                    Case 8                       Contractor E*                      Location 3
                    Case 9                       Contractor D                       Location 2
                    Case 10                      Contractor F                       Location 2
                    Case 11                      Contractor F                       Location 2
                    Case 12                      Contractor C                       Location 2
                    Case 13                      Contractor G                       Location 2
*Top Ten DoD Contractors (FY 2008, USA spending.gov)
3
  Forward pricing proposals are audits of estimated future costs of proposed contractor pricing, proposed contract
change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized
contracts.
4
  GAO used “case” to identify the allegations addressed in their report. A case may include 1 or more audits.
5
  In this report we used the same method of identifying contractors as GAO did, by using letters (e.g. “a,” “b,”).
Table 1 above identifies the contractors associated with each case.
                                                          2
                                   FOR OFFICIAL USE ONLY
Generally Accepted Government Auditing Standards
DoD Instruction 7600.2 dated April 27, 2007, “Audit Policies,” requires that all independent
audit and attestation engagements of DoD organizations, programs, activities, and functions be
conducted in accordance with the GAGAS as issued by the Comptroller General of the United
States. GAGAS provides the framework for auditors to perform high-quality audit work with
competence, integrity, objectivity, and independence. Under GAGAS, auditors must prepare
audit documentation in sufficient detail to provide a clear understanding of the work performed,
including the nature, timing, extent, and results of audit procedures performed; the evidence
obtained and its source; and the conclusions reached. The audit documentation should contain
support for the report’s findings, conclusions, and recommendations.


Report Organization
For 8 of the 13 cases and the DCAA work environment at 2 audit offices identified by GAO in
its July 2008 report, we identified issues with the appropriateness of actions taken and/or the
quality of audit work and addressed these issues in Findings A through I. For the remaining
5 cases, we determined that DCAA had taken corrective actions that we considered sufficient to
address deficiencies identified by GAO or corrective actions were still ongoing or planned so we
were unable to perform an analysis at the time of this review. We addressed those 5 cases in
Appendix D. The table below provides information on where the various cases are discussed
within this report.

                            Table 2. Report Organization by Case Number
                     Work Environment                               Finding A         Page 4
 Case 1              Follow-on Survey of Contractor A’s             Appendix D        Page 61
                     Estimating System
 Case 2              Continuing Audit Issues on Evolved             Finding B         Page 13
                     Expandable Launch Vehicle
 Case 3              Audits of Defective Pricing on Freight-out     Finding C         Page 29
                     Charges
 Case 4              Audit of Billing System                        Finding D         Page 35
 Case 5              Estimating System Audit of Contractor C        Appendix D        Page 62
 Case 6              Accounting System Audit of Contractor D        Appendix D        Page 62
 Case 7              Cost Accounting Standard 403 Compliance        Appendix D        Page 62
                     Audit of Contractor D
 Case 8              Forward Pricing Audits                         Finding E         Page 40
 Case 9              Audit of Compensation System                   Finding F         Page 44
 Case 10             Audit of Purchasing System                     Finding G         Page 46
 Case 11             DCAA Audit of Billing System                   Finding H         Page 48
 Case 12             Labor Floor Check                              Finding I         Page 52
 Case 13             Cost Accounting Standard 418 Compliance        Appendix D        Page 63
                     Audit of Contractor G




                                                 3
                             FOR OFFICIAL USE ONLY
                                  Findings
A. Work Environment
   Work environment conditions existed at DCAA Locations 1 and 2 that may have
   contributed to the lack of compliance with GAGAS for the audits reviewed at Locations 1
   and 2. Audit employees expressed concerns with time pressures related to performance
   measures and described incidences of unprofessional behavior. These conditions may
   have contributed to deficient audit work. Although we attempted to determine if these
   conditions constituted an abusive work environment, we could not find consistent
   criterion or definitions for what conditions reflect a “generally abusive” work
   environment. Nonetheless, some employees may have considered the work environment
   conditions to be abusive. The instances of work environment issues identified support
   the need for DCAA to continue to assess the environment and take additional corrective
   actions.

   Background. In the July 2008, GAO report on DCAA audits and compliance with
   GAGAS, GAO reported that DCAA managers took improper disciplinary actions against
   staff at two locations, attempted to intimidate auditors to prevent auditors from speaking
   with investigators, and created a generally abusive work environment. GAO cited
   incidences of verbal admonishments, reassignments, and threats of disciplinary actions
   against auditors who raised questions about management guidance to omit audit findings
   or change audit opinions.

   Results of DoD Office of Inspector General Review. We interviewed all available
   audit personnel, 97 percent of the currently assigned personnel, at Locations 1 and 2. At
   Location 1, we interviewed a total of 31 individuals, 29 audit personnel currently
   assigned to the office and 2 individuals that previously worked at the office. At
   Location 2, we interviewed 100 percent of the 36 audit personnel currently assigned to
   the office and 1 individual that had recently moved to another office, for a total of
   37 interviews. The audit personnel interviewed included FAO managers, supervisors,
   and auditors. We did not evaluate performance improvement plans, performance
   evaluations, and similar personnel actions; nor did we address matters submitted to the
   Office of Special Counsel. See Table 3 for the results of our interviews of 68 audit
   personnel at DCAA Locations 1 and 2.




                                           4
                        FOR OFFICIAL USE ONLY
                                        Table 3. Results of Interviews
                                                                    Number of                 Number of
                            Interview Topics                     individuals who            individuals who
                                                                  answered YES               answered NO
         Received instruction from management to withhold
                                                                      1 (1%)                    67 (99%)
         information from investigative agencies
         Experienced pressure because of unreasonable
                                                                     32 (47%)                   36 (53%)
         performance measures
         Worked uncompensated overtime 6                             26 (38%)                   42 (62%)
         Had a supervisor change or direct a change to audit
                                                                     12 (18%)                   56 (82%)
         results and opinions
         Witnessed unprofessional behavior in the office             22 (32%)                   46 (68%)

        These instances could have negatively impacted the work environment enough to affect
        the quality of some audits. Recent DCAA corrective actions taken in response to the
        GAO report may help to prevent future occurrences.

        Withholding Information. One of 68 employees interviewed responded “yes” when
        asked whether management had ever instructed them to withhold information from
        investigative agencies. The employee had received a memorandum from DCAA dated
        August 31, 2007, that instructed the employee not to provide documentation to anyone
        outside the agency, including Government investigators, under threat of disciplinary
        action. This matter related to allegations the employee had submitted to the Office of
        Special Counsel. Conversely, the other 67 employees interviewed all said that
        management had never directed them to withhold information. When asked whether they
        had been or knew anyone who had been threatened with disciplinary action, 1 of the
        67 employees did remark that they knew about the August 31, 2007, DCAA
        memorandum the other employee had received.

        Pressures Related to Performance Measures. Twenty of 31 employees at
        Location 1 and 12 of 37 employees at Location 2 or 47 percent of all employees
        interviewed said that DCAA performance measures created undue pressure to complete
        audits in unreasonable timeframes. The most frequently cited performance measures
        were the 30-day due dates for forward-pricing audits, the September 30 year-end deadline
        for programmed audits, and budgets for performing audits that are based on overall
        averages rather than individual audit situations. Ten of the audits reviewed and
        determined as not complaint with GAGAS were programmed audits and issued in the last
        half of September, implying that pressures to meet fiscal year-end performance measures
        may have contributed to the deficient audit work.7




6
  Uncompensated overtime represents time worked and not charged on the employee’s time log and, therefore,
unpaid or uncompensated time worked.
7
  September 30 is the end of the Government fiscal year.
                                                       5
                                 FOR OFFICIAL USE ONLY
               When questioned whether they were ever asked to perform an audit in an
        unreasonable time, one employee stated, “Yes, we rush assignments out to meet internal
        due dates.” Another employee said, “Yes, I was asked to complete a proposal audit in
        21 hours.” The employee said that completing the audit in a short time frame would
        compensate for other audits that took longer and improve the overall average. In
        addition, at Location 1, some employees commented that the pressure to meet various
        performance measures also led to a high turnover of auditor trainees in that office.

                Thirty-six of the 68 employees (53 percent) did not think management had ever
        asked them to perform an audit in an unreasonable amount of time. Several employees
        said that when they needed more time to complete an audit than originally budgeted, they
        would discuss the work and additional time needed with their supervisor. One employee
        stated, “I have always been given budget [number of hours allotted to perform the audit]
        increases as long as I’ve been able to support why it’s needed.” The same employee
        stated that due dates could also be extended when justified.

        Uncompensated Overtime. Thirty-eight percent or 26 8 of 68 employees interviewed
        stated that they worked uncompensated overtime. Sixty-five percent or 20 of 31 audit
        employees interviewed at Location 1 stated that they worked uncompensated overtime to
        complete audits within budgeted hours and to meet other DCAA performance measures.
        On average, these employees estimated they worked roughly seven uncompensated
        overtime hours per week.

               Six of the 37 employees (16 percent) at Location 2 stated that they worked
        uncompensated overtime for reasons other than meeting performance measures. The
        reasons these employees cited included doing research, catching up on a few things, and
        making up for time spent at the office socializing with co-workers. The remaining
        31 employees said they did not work uncompensated overtime.

               Of the total 68 employees interviewed, 42 employees (62 percent) said they do
        not work uncompensated overtime. When asked, they responded that they charged all the
        hours they work. A least two employees said they used to work on their own time, but
        not any more. They said they worked uncompensated overtime when they were new to
        DCAA and still learning.

                During a prior review of Location 2, we found that the audit staff was working a
        significant amount of uncompensated overtime. On October 5, 2006, we issued a
        memorandum informing the Director, DCAA, of the condition. DCAA management
        communicated to the audit staff at Location 2 that management did not expect the staff to
        work uncompensated overtime and encouraged the staff to discuss audit budgets with
        their supervisors.



8
  Of the 26 employees who stated that they worked uncompensated overtime, 20 were at location 1 and 6 were at
location 2.
                                                       6
                                 FOR OFFICIAL USE ONLY
Changing Audit Results and Opinions. Twelve of 68 employees described having
their audit results or findings changed by management. One employee said the
supervisor changed the opinion to make it a stronger result. Another employee explained
that a prior FAO manager changed the opinion because DCAA policy at that time
required the auditor to demonstrate the significance of the condition’s impact or report
the condition as a suggestion for improvement. Therefore, because the auditor could not
monetize or quantify the condition, the FAO manager would not issue a negative opinion
report.
        Many of the supervisors and auditors commented that the primary reasons for
changing opinions and findings included management determining there was insufficient
support for the findings, and disagreeing on materiality or the significance of the issues.
Changing the opinions and findings based on these reasons may be the appropriate action
for the supervisor to take; however, the supervisor is also responsible to ensure that any
changes are adequately supported and properly documented in the audit documentation.
                         responsible for 9 of the 13 cases identified as not
complying with GAGAS (Cases 3 through 7, 9, and 11 through 13).

                              The DCAA policy is that the supervisory auditor is
responsible to ensure that each audit is conducted in accordance with GAGAS. Six of the
nine cases                        were responsible for that did not comply with GAGAS
were also identified as being in the group of eight that had the audit opinions or findings
changed without sufficient documented support. Therefore, in relation to the six cases
with unsupported opinions or findings,                              did not properly perform
their duties. In addition, the supervisors issued the audit reports associated with five of
the six cases in the last half of September, which suggests that pressures to meet the
September 30 performance measure negatively affected the quality of these audit reports.
See Table 4 for a list of the cases associated with these audits.


                  Table 4. Cases Identified Where Management Changed
                              the Audit Opinion or Findings

    Location in         Case                                  Title
      Report           Number
 Appendix D               1        Follow-on Survey of Contractor A’s Estimating System
                                   Continuing Audit Issues with Contractor A Related to a 2006
 Finding B                2
                                   DCAA Proposal Audit (Evolved Expendable Launch Vehicle)
 Finding C                3*       Audit of Defective Pricing on Freight-out Charges
 Finding D                4*       Audit of Billing System
 Appendix D               5*       Estimating System Audit of Contractor C
 Appendix D               6*       Accounting System Audit of Contractor D
                                   Cost Accounting Standard 403 Compliance Audit of
 Appendix D               7
                                   Contractor D
 Finding I               12*       Labor Floor Check
* Reports issued in last two weeks of the fiscal year.

                                                 7
                          FOR OFFICIAL USE ONLY
        The other 56 employees answered that management had not changed their audit
results or opinions. Some employees stated that when the supervisor thought a change
was necessary, the supervisor would discuss it with them and they would reach an
agreement. One employee said that the supervisor discussed the findings during the audit
so there were no changes at the end.

Unprofessional Behavior. Employees should have a work environment free from
intimidation caused by “yelling” and other forms of unprofessional behavior. When
asked whether they had witnessed any unprofessional behavior, of the 68 employees
interviewed, 22 employees responded “yes” and 46 employees answered “no.”
Approximately 43 percent or 16 of the 37 employees we interviewed (management and
audit staff) at Location 2 cited repeated incidences of unprofessional behavior. The
employees said they often overheard raised voices, including yelling between supervisors
and auditors, and between administrative personnel and auditors. One supervisor
admitted that they had “raised their voice in the heat of the moment.” Another supervisor
said that an auditor yelled at the supervisor during a meeting. The same supervisor also
recounted that the supervisor elevated the problem of an administrative employee’s
repeated yelling and swearing to the FAO manager. The swearing stopped, but the
yelling continued.

        Six of 31 employees interviewed at Location 1 described incidences of
unprofessional behavior. Three of the six employees reported a supervisor behaving
unprofessionally. The employees described the supervisor as being “rude and
unprofessional” and “very blunt and intimidating.” The other three employees reported
that a senior official behaved unprofessionally by yelling and intimidating employees.
Two employees at Location 2 also said that the same senior official acted
unprofessionally when they worked at Location 1.



DCAA Corrective Actions. During our review, DCAA initiated several corrective
actions in response to the GAO report.

      On July 31, 2008, DCAA issued a memorandum instructing that differences of
       opinion on audit issues be elevated to the Deputy Regional Director when an
       auditor is unable to reach a resolution through the supervisor, FAO manager, and
       regional audit manager (RAM).




      On September 12, 2008, DCAA management rescinded the August 31, 2007,
       memorandum restricting an employee from directly providing documents to
       investigative agencies and encouraged full cooperation with any investigations
                                        8
                     FOR OFFICIAL USE ONLY
                 conducted by representatives of Government investigative authorities.

                On September 30, 2008, DCAA notified all employees that it had eliminated
                 18 prior productivity measures, developed 8 new performance measures, and re-
                 emphasized its policy on zero-based budgeting.9

                DCAA began a DCAA-wide organizational assessment survey addressing work
                 environment issues on October 6, 2008. DCAA also established a website for
                 providing feedback on the inappropriate use of performance measures.

                On December 3, 2008, the Location 1 FAO manager notified all Location 1
                 employees that DCAA did not require anyone to work uncompensated overtime.
                 The FAO manager instructed employees to notify management when they needed
                 to work overtime because budgeted funds were available to meet workload peaks.

                On December 4, 2008, DCAA revised its guidance to remove any language that
                 suggested consideration of program hours or productivity measures as a basis for
                 determining the audit budget hours.

                DCAA is also performing an anonymous DCAA-wide organization assessment to
                 address improvements in the Strategic Plan, staffing allocations, ethics, and
                 leadership to be completed in 2009.

        We will review the appropriateness, effectiveness, and implementation of the DCAA
        corrective actions during future oversight reviews.

Management Comments and DoD IG Response to
Finding
        DCAA Comments on the Finding. DCAA emphasized that they take the results of our
        conclusions on the DCAA work environment seriously. DCAA went on to state that the
        DoD IG found no additional cases of DCAA inappropriately changing audit findings and
        the DoD IG “reported that, based on many of the auditor interviews, the audit opinions
        and findings were changed primarily because of insufficient support for the findings and
        disagreements on the significance of issues.” DCAA reiterated the various actions it has
        taken, including renewed emphasis on audit quality and engaging the Naval Post
        Graduate School to assess its culture and assist in completing its “cultural
        transformation.” The DCAA response pointed out that in addition to rescinding the letter
        that was the source of the instruction to withhold the information,



9
 Zero-based budgeting is the process during which the supervisor and the auditor discuss and agree on the budgeted
hours required to perform an audit based on the risk assessment, audit scope, and audit program.
                                                        9
                                  FOR OFFICIAL USE ONLY
      DoD IG Response. The additional actions taken by the Director, DCAA, are
      noteworthy. However, the DCAA response mischaracterized the DoD IG report
      conclusion on management inappropriately changing audit opinions and findings. The
      report conclusions on management making inappropriate changes to audit reports and the
      changes being made primarily due to insufficient support for the findings and
      disagreements on the significance of the issues should be put into the context of the
      review scope. We did not identify any additional audits where DCAA management
      inappropriately changed the report because we limited our review to the audits discussed
      in the GAO investigative report. The GAO review only involved the review of 13 cases,
      10 of which were performed at Location 2. In FYs 2004-2006, Location 2 performed
      1,256 audit assignments, for an average of 418 assignments per year. Given the large
      number of audit assignments during this timeframe and the limited scope of our review to
      10 assignments, an expansion of the scope of our review may have resulted in our finding
      additional examples of management changes to reports for inappropriate reasons that
      were not well supported or documented.

Recommendation, Management Comments and
DoD IG Response
Recommendation A.                    We recommend that the Director, Defense Contract
Audit Agency:

      1. Consider appropriate corrective action regarding the performance of the
                    associated with the majority of the noncompliant audits reviewed.

         DCAA Comments. DCAA agreed with the recommendation.
         mentioned in the recommendation are to re-take the supervisory courses at the
         Defense Contract Audit Institute. The Regional Director, Western Region, is to also
         examine external courses that may be of assistance in further developing their
         management skills.



         DoD IG Response. DCAA comments were responsive.

      2. Provide training and direction to all employees, regardless of position, on:
             a. what is appropriate professional behavior;
             b. how to handle situations involving unprofessional behavior; and
             c. how to report unprofessional behavior.


                                             10
                           FOR OFFICIAL USE ONLY
   DCAA Comments. DCAA agreed with the recommendation. DCAA plans to
   finish researching outside organizations to provide the training by August 2009 and
   complete DCAA-wide training by the end of FY 2010.

   DoD IG Response. DCAA comments were responsive.

3. Analyze the results of recent work environment assessments and surveys or
   other appropriate independent reviews of Defense Contract Audit Agency field
   audit offices’ work environment.

   DCAA Comments. DCAA agreed with the recommendation. DCAA will continue
   to analyze the results of work environment surveys and assessments and take
   proactive action to address issues that surface. For example, DCAA is completing its
   assessment of the Office of Personnel Management survey results on the
   organizational environment; developing an implementation plan; and expecting to
   share the DCAA Headquarters assessment and an improvement action plan with the
   workforce by July 31, 2009.

   DoD IG Response. DCAA comments were responsive.

4. Based on the analysis from Recommendation A.3, determine additional
   corrective actions required to address the pressures to work uncompensated
   overtime.
   DCAA Comments. DCAA agreed with the recommendation. However, DCAA
   stated that the survey results did not indicate that the pressure to work uncompensated
   overtime was a DCAA-wide issue. The Director will request the Regional Directors
   to reinforce to the DCAA workforce during their regular ongoing management and
   staff briefings that DCAA does not expect employees to work uncompensated
   overtime.

   DoD IG Response. DCAA comments were responsive.

5. Provide a copy of the analysis and planned corrective actions from
   Recommendations A.3. and A.4. to the DoD Inspector General, Assistant
   Inspector General for Audit Policy and Oversight.


   DCAA Comments. DCAA agreed with the recommendation. DCAA will keep the
   DoD IG apprised of their corrective actions and provide the related supporting data.
   DCAA will provide to the DoD IG a copy of the results of the survey assessment
   provided to the workforce by August 31, 2009.

   DoD IG Response. DCAA comments were responsive.


                                       11
                     FOR OFFICIAL USE ONLY
6. Perform an employee survey or assignment review to determine whether
   Western Region has satisfactorily implemented the policy on differences of audit
   opinions.

   DCAA Comments. DCAA agreed with the recommendation. By December 2009,
   the DCAA Policy and Plans Directorate will perform a review (to include assignment
   reviews and surveys) to assess compliance with the DCAA policy on handling
   disagreements of audit opinions in the Western Region.

   DoD IG Response. DCAA comments were responsive.




                                     12
                    FOR OFFICIAL USE ONLY
B. Continuing Audit Issues with Contractor A
   Related to a 2006 DCAA Proposal Audit
   (Evolved Expendable Launch Vehicle)
   (GAO Case 2)
       We confirmed the findings reported by GAO (Case 2) that (i) the audit engagement was
       impaired due to a lack of auditor independence, (ii) the DCAA working papers did not
       support the reported opinions included in DCAA Audit Report No. 4461-
       2006A21000001, dated May 8, 2006, and (iii) the draft audit opinion was changed
       without sufficient documentation.

       Background. The following table depicts the evolution of unabsorbed Program
       Management and Hardware Support (PM&HS) cost at Contractor A and deferred
       production costs at the subsequent Joint Venture on the Evolved Expendable Launch
       Vehicle (EELV) Delta IV Buy III program. The numbers in Table 5 are not meant to be
       taken as a whole but are presented solely for clarification of the evolution of costs.

                      Table 5. Proposed Costs and Payments - EELV
   Amount             Date                                 Description
                                   Contractor’s recognized / publicly reported losses on Delta
$835 million     07/15/2003
                                   IV Program (2003).
                                   Proposed and questioned unabsorbed PM&HS, in first
$333.3 million   07/29/2005
                                   Delta IV EELV Buy III proposal and first audit report.
$634.5 million   12/13/2005        Contractor’s losses on 14 awarded / launched missions.
                                   Proposed unabsorbed PM&HS, second Delta IV EELV Buy
$133.3 million   01/23/2006
                                   III proposal.
                                   DCAA questioned unabsorbed PM&HS cost, second audit
$64.7 million    05/08/2006
                                   report.
                                   Total unabsorbed PM&HS to be paid to the contractor over
$271.2 million   11/08/2006
                                   8 years ($271.2 million / 8 = $33.9 million).
$33.9 million    11/08/2006        Unabsorbed PM&HS annual payment to the contractor.
                                   Stipulated deferred production ceiling amount for the Joint
$268 million     03/25/2008
                                   Venture.
                                   Deferred Production recovered by the Joint Venture on two
$10.4 million    04/15/2008        ordered missions (National Aeronautics and Space
                                   Administration).
$114 million     04/21/2008        Proposed deferred production cost by the Joint Venture.


                                             13
                             FOR OFFICIAL USE ONLY
         On January 29, 2005, DCAA issued Audit Report No. 4461-2005A21000005 on the
         contractor’s Delta IV EELV Buy III Launch Capability contract proposal. DCAA
         reported that the contractor-proposed $333.3 million in unabsorbed PM&HS costs had
         been incurred in prior accounting periods and represented a potential noncompliance with
         CAS 406, 10 “Cost Accounting Period.” DCAA also reported that the contractor had
         made no adjustment to recognize and eliminate losses on the Delta IV program. DCAA
         reported that the contractor’s proposal was not an acceptable basis for the negotiation of a
         fair and reasonable price.

         The contractor had reported in a July 2003 press release that it would take a $1.1 billion
         loss against earnings, of which $835 million were attributable to losses on its Delta IV
         Program.

         After receipt of the first DCAA Audit Report No. 4461-2005A21000005, Air Force
         Space and Missiles Systems Center (SMC) attempted to negotiate the Buy III Launch
         Capability contract, but, among other issues, the contractor would not agree to the Air
         Force’s position that the proposed unabsorbed PM&HS cost was potentially
         noncompliant with CAS 406 or represented losses incurred on other contracts, as reported
         by DCAA. As an alternative, SMC considered requesting a CAS waiver, 11 to include a
         waiver of CAS 406. However, before going forward with the CAS waiver proposal,
         SMC held a meeting of senior level officials from the Defense Contract Management
         Agency (DCMA), DCAA, and the contractor in an attempt to identify issues preventing
         SMC from negotiating a contract.

         On January 23, 2006, SMC requested DCAA perform an audit of the contractor’s
         upcoming revised Delta IV EELV Buy III Launch Capability proposal, which was
         projected to include $133.3 million in contractor proposed unabsorbed PM&HS costs.
         The amount of unabsorbed PM&HS differed from the $333.3 million included in the
         initial contractor proposal due to several factors, including a reduced period of
         performance (2 years versus 3 years).

         On May 8, 2006, DCAA issued Audit Report No. 4461-2006A21000001. DCAA no
         longer reported that the contractor-proposed $133.3 million in unabsorbed PM&HS costs
         represented a potential noncompliance with CAS 406. DCAA provided in a Scope of
         Audit Qualification that it could not quantify costs associated with the contractor’s


10
   CAS 406, “Cost Accounting Period,” provides criteria for the selection of the time periods to be used as cost
accounting periods for contract cost estimating, accumulating, and reporting. It requires a contractor use its fiscal
year as its cost accounting period. A fiscal year is defined as the accounting period for which annual financial
statements are regularly prepared, generally a period of 12 months, 52 weeks, or 53 weeks. CAS is a set of
principles that establish practices to be applied and specify criteria to be employed in estimating, accumulating and
reporting costs for Government contracts. Deviating from those criteria constitute a violation of Public Laws 91-379
and 100-679.
11
   The CAS Waiver, Federal Acquisition Regulation Part 9901.307, allows the CAS Board to exempt classes of
contractors from CAS requirements and established procedures. The official records of the Board shall be
documented with supporting justification for class category exemptions and individual waivers.
                                                         14
                                  FOR OFFICIAL USE ONLY
         reported loss on its Delta IV program, that some of the proposed unabsorbed PM&HS
         costs may not be allocable to the new contract, and that it was a procurement decision on
         whether to pay these costs.

         DCAA stated that its audit of the proposed unabsorbed PM&HS cost pool was primarily
         focused on determining whether the proposed costs were appropriately identified as
         EELV Launch Capability effort. The second DCAA Audit Report No. 4461-
         2006A21000001 did not question any part of the proposed $133.3 million as potentially
         noncompliant with CAS 406 or unallowable in accordance with Federal Acquisition
         Regulation 31.205-23, “Losses on Other Contracts.” 12 However, the audit report
         questioned $64.7 million of proposed $133.3 million of unabsorbed PM&HS costs, based
         upon what the audit staff called lack of auditable support or because the costs were
         considered to be non-Launch Capability costs.

         On April 21, 2008, SMC requested DCAA review a $114 million proposal for deferred
         production costs submitted by the follow-on contractor to the Delta IV program, a joint
         venture that includes the original contractor. The proposed deferred production costs are
         from the same Delta IV Program described above and were estimated, in part, using the
         same lot cost accounting technique.

         DoD Office of the Inspector General Action to Withhold Payments. The Deputy
         Inspector General for Policy and Oversight issued a Memorandum for Commander,
         SMC, and Director, DCMA, on October 20, 2008, recommending that:

                 SMC take immediate action to withhold further payments to the Delta IV EELV
                  Buy III contractor for unabsorbed PM&HS costs (the Air Force contractual
                  arrangement provides for up to $271 million in payments to the contractor, of
                  which $101 million has already been paid);

                 SMC cease negotiations with the Delta IV Launch Services contractor on a
                  $114 million proposal for unabsorbed costs; and

                 DCMA reassess the propriety of existing advance agreements involving the
                  EELV program.

         We based these recommendations on our preliminary findings that the DCAA audit was
         flawed. The DCAA audit failed to demonstrate that the contractor’s proposal for
         recovery of the unabsorbed PM&HS costs excluded: (a) costs incurred in prior
         accounting periods and (b) losses incurred on other contracts.




12
  Federal Acquisition Regulation 31.205-23, “Losses on Other Contracts,” provides “An excess of costs over
income under any other contract (including the contractor’s contributed portion under cost-sharing contracts) is
unallowable.”
                                                         15
                                   FOR OFFICIAL USE ONLY
The Commander, SMC, advised us by memorandum dated November 7, 2008, that SMC
had taken action to suspend further payments and would not conduct further negotiations
for unabsorbed costs until the matter was resolved. SMC also advised the contractor to
fully cooperate with the pending DCAA audit.

The Executive Director, Contracts, DCMA, advised us by memorandum dated
November 18, 2008, that DCMA concurred with our recommendation to reassess the
Advance Agreements and that DCMA was awaiting a pending DCAA audit with respect
to Federal Acquisition Regulation and CAS noncompliances associated with the Advance
Agreements.

The two agreements at issue are (i) Advance Agreement on EELV Program Delta IV Lot
Accounting, signed on November 13, 2006, and (ii) the Advance Agreement on EELV
Program Delta IV Program Management and Hardware Support, signed on
November 8, 2006. The first agreement provides that the DCMA Divisional
Administrative Contracting Officer has found the contractor’s Lot Accounting a
compliant practice under the CAS. The second agreement provides that $271,152,672 in
unabsorbed PM&HS costs that were incurred prior to June 1, 2006, but were neither
allocable to nor payable under prior contracts, may be reimbursed by the Air Force on
future contracts as a fixed-price line item.

Flawed DCAA Audit. The DCAA RAM with responsibility for the audit of the
contractor’s updated Delta IV EELV Launch Capability proposal was not free from
external impairments to independence as required by GAGAS and DCAA audit policy.
See the section below on “Actions Demonstrating Impairment of Independence.”
Because of the actions of the DCAA RAM, the DCAA audit:

      failed to demonstrate that the contractor’s proposed $133.3 million in unabsorbed
       PM&HS costs complied with the Federal Acquisition Regulation, and

      allowed SMC and DCMA acquisition officials to negotiate a contract and
       applicable advance agreements free of a violation of CAS 406 and Federal
       Acquisition Regulation 31.205-23, “Losses on Other Contracts.”

Auditor Independence. The General Standard on Independence included by the
Comptroller General of the United States in the GAGAS provides, “In all matters relating
to the audit work, the audit organization and the individual auditor must be free from
personal, external, and organizational impairments to independence, and must avoid the
appearance of such impairments to independence.” The Standard states specifically,
“Auditors should avoid situations that could lead objective third parties with knowledge
of the relevant information to conclude that the auditors are not able to maintain
independence and thus are not capable of exercising objective and impartial judgment on
all issues associated with conducting the audit and reporting on the work.” The Standard
identifies three general classes of impairments to independence: personal, external, and
organizational. Regarding external impairments, the Standard provides, “External
                                       16
                     FOR OFFICIAL USE ONLY
impairments to independence occur when auditors are deterred from acting objectively
and exercising professional skepticism by pressures, actual or perceived, from
management and employees of the audited entity or oversight organizations.”

DCAA has incorporated the General Standard on Independence in its Contract Audit
Manual. The Contract Audit Manual provides that (i) as a DCAA employee, the primary
responsibility is to protect the interest of the Government and (ii) the auditor’s
effectiveness depends on the ability to develop and evaluate facts and arrive at sound
conclusions objectively (based on unbiased judgments) and independently (not subject to
influence or control by others).

The Contract Audit Manual states:

       In the DCAA environment, some of the external factors that can restrict the
       audit or infringe on the auditor’s ability to form independent and objective
       opinions and conclusions include: procurement or contracting officers’
       interference in the scope and character of the audit that could modify audit
       results; denial of access to sources of information, such as books, records, and
       supporting documents or officials and employees of the contractor under audit;
       [and] actions by contractors significantly influencing the auditor’s judgment
       regarding the content of the audit report….

Actions Demonstrating Impairment of Independence. The DCAA RAM did not
remain free in fact and in appearance from external impairments to independence and,
therefore, failed the contract auditor's primary responsibility to protect the interests of the
Government. The following actions by the DCAA RAM during the DCAA audit of the
contractor’s revised Delta IV EELV Launch Capability proposal demonstrate impairment
to independence.

   •   The DCAA RAM attended a meeting of top leadership officials from SMC,
       DCMA, and the contractor at SMC on December 13, 2005. According to the
       former Executive Director, SMC, the meeting was held to identify ‘roadblocks’
       that were preventing SMC from negotiating the Delta IV Launch Capability
       contract (Contract No. FA8816-06-C-0001). We found that:

           o Until this meeting, the DCAA RAM had supported the audit position
             reported in DCAA Audit Report No. 4461-2005A21000005, dated
             July 29, 2005, that the contractor’s proposed unabsorbed PM&HS costs
             were potentially noncompliant with CAS 406 and represented losses on
             other contracts.

           o At this meeting, the contractor provided SMC a schedule depicting a
             contractor loss position of $634.5 million on its 14 awarded Delta IV
             EELV missions. SMC officials asserted to us that DCAA representatives
             received the schedule. However, the DCAA supervisor and lead auditor


                                             17
                       FOR OFFICIAL USE ONLY
           that performed the audit of the contractor’s proposal advised us they had
           not been provided with, or made aware of, this schedule and the identified
           losses.

       o SMC did not document the purpose and results of the meeting, including
         attendees, issues discussed, actions taken, and issues resolved.

       o The DCAA RAM did not document in the audit file the results of the
         meeting, including the attendees, issues discussed, actions taken, and
         issues resolved.

       o The DCMA Divisional Administrative Contracting Officer, in a written
         record of this meeting, states that the primary goal was to support SMC’s
         ‘top priority’ of getting an unqualified DCAA followup audit report. This
         record also provides that DCAA would review events leading up to a
         previously issued potential CAS 406 noncompliance; DCAA would
         perform a walk-through of the contractor’s accounting procedure; and a
         decision to reinstate a proposal by SMC to request a CAS waiver would be
         based on the DCAA opinion/recommendation to withdraw CAS 406.

   After this meeting, the DCAA RAM failed to exercise objective and impartial
    judgment on significant issues associated with conducting the audit and reporting
    on the work. At the January 19, 2006, walk-through, a contractor representative
    that had attended the same December 13, 2005, meeting at SMC advised DCAA
    that it would not have access to contractor financial records sufficient to evaluate
    the losses. We found the following.

       o The DCAA RAM did not act objectively and exercise impartiality when
         she unilaterally determined after attending the contractor’s January 19,
         2006, walk-through of its lot accounting practice that the contractor was in
         compliance with CAS 406. The DCAA auditor under the direction of the
         RAM that attended the same walk-through advised us that the contractor’s
         walk-through did not address CAS compliance and, in fact, never
         mentioned CAS 406. Our review of the contractor’s walk-through
         briefing slides found that none of the briefing slides addressed CAS
         compliance, including CAS 406.

       o Subsequent to the January 19, 2006, walk-through, the DCAA RAM
         inappropriately required the auditor to change the audit results. According
         to the supervisor, lead auditor, and FAO manager, the DCAA RAM
         directed the auditor to omit CAS 406 compliance testing and discussion of
         CAS compliance from the audit of the contractor's forthcoming update to
         its proposed unabsorbed PM&HS costs. We found no audit testing for
         CAS 406 compliance in the audit working paper files established by

                                     18
                  FOR OFFICIAL USE ONLY
               DCAA to document their audit of the updated contractor proposal for
               $133.3 million in unabsorbed PM&HS costs.

           o The RAM failed to demonstrate auditor independence and take action to
             pursue the denial of access to contractor records as provided by DCAA
             policy, and, according to the DCAA auditor at the meeting, agreed with
             the contractor’s position on the denial. By not pursuing audit access to the
             contractor’s accounting records, the DCAA RAM thwarted DCAA’s
             ability to obtain sufficient evidence to demonstrate that the contractor had
             excluded from its unabsorbed PM&HS cost pool any part of the
             $835 million in publicly reported losses the contractor had recorded on its
             Delta IV program.

           o The DCAA RAM reported to her supervisor, the Regional Director for
             DCAA Western, on February 9, 2006, that CAS 406 was no longer an
             issue. However, she failed to report that this determination was not
             supported by the results of audit procedures and that her field audit staff
             disagreed.

           o The DCAA RAM did not act objectively when overturning the audit
             judgment of the supervisor that the contractor’s proposed $133.3 million
             unabsorbed PM&HS costs were unallowable costs in accordance with
             Federal Acquisition Regulation 31.205-23, “Losses on Other Contracts,”
             and that the contractor’s use of a 15-year lot was an estimating system
             deficiency. Prior to the collapse of the commercial launch market, the
             contractor used a 2-year lot.

           o The DCAA RAM directed the issuance of an audit report, DCAA Audit
             Report No. 4461-2006A21000001, dated May 8, 2006, that is not based on
             sound conclusions objectively arrived at through the development and
             evaluation of facts. By these actions the DCAA RAM was able to provide
             SMC with a DCAA audit report free of CAS noncompliances from which
             SMC could negotiate contractor unabsorbed costs on the Delta IV EELV
             Launch Capability contract.

Based upon our review of the totality of events surrounding the audit and acquisition, we
have concluded that during the DCAA audit of the contractor’s updated Delta IV EELV
Launch Capability proposal the DCAA RAM did not satisfy the General Standard of
Independence issued by the Comptroller General of the United States. The DCAA RAM
did not protect the interests of the Government as required by DCAA policy. We have
also concluded that DCAA Audit Report No. 4461-2006A21000001, dated May 8, 2006,
cannot be relied upon by acquisition officials as a basis to negotiate fair and reasonable
contract prices.



                                        19
                     FOR OFFICIAL USE ONLY
Impact on Delta IV EELV Contract Acquisitions. DCAA Audit Report No. 4461-
2006A21000001, dated May 8, 2006, impacted EELV acquisition decisions as follows.

        Delta IV Launch Capability. SMC relied on DCAA Audit Report No. 4461-
2006A21000001 as the basis to negotiate a pool of unabsorbed PM&HS costs, called
Deferred Support Costs, totaling $271,152,672. This amount is to be billed on a fixed-
price basis in eight yearly installments of $33,894,084 each. Contract No. FA8816-06-C-
0001, the Delta IV EELV Launch Capability contract, was signed on November 16,
2006, and included fixed-price line items for $67,788,168 of unabsorbed PM&HS for
2 years. SMC exercised a contract option to extend the Launch Capability contract for
2 more years in 2007, including 2 years of unabsorbed PM&HS at $33,894,084 per year.

Contract Clause, SMC-H019 Advance Agreements to Contract No. FA8816-06-C-0001
provides that advance agreements have been executed and control the specified cost
charging areas for this and any successor contract. The clause provides that each
Advance Agreement is an integral part of this contract and was a substantial factor in
determining contract value. The clause ends by stating that the Lot Accounting Advance
Agreement will also be incorporated into the EELV Launch Services Contract, if
awarded.

       Advance Agreements. DCMA relied on DCAA Audit Report No. 4461-
2006A21000001 to enter into (i) an Advance Agreement on EELV Program Delta IV
Program Management and Hardware Support, signed by the Divisional Administrative
Contracting Officer on November 8, 2006, and (ii) an Advance Agreement on EELV
Program Delta IV Lot Accounting signed by the Divisional Administrative Contracting
Officer on November 13, 2006.

      The Advance Agreement on EELV Program Delta IV Program Management and
       Hardware Support provides, in part, that $271,152,672 represents costs for
       program management and hardware support under the Delta IV program that were
       incurred and placed in an inventory account prior to June 1, 2006, but were
       neither allocable to nor payable under obligations or contracts entered into or
       performed prior to that date. It states that the Air Force has discussed the
       potential to compensate the contractor for such unreimbursed expenses on a
       separate line item on future contracts, and has agreed on a method by which the
       contractor may be paid a 1/8 share of such $271,152,672 amount as a fixed-price
       contract line item in each year of future contracts, if awarded.

      The Advance Agreement on EELV Program Delta IV Lot Accounting provides,
       in part, that it is agreed that the undersigned Divisional Administrative
       Contracting Officer has found Lot Accounting a compliant practice under CAS.
       It also provides that this determination is not intended to and does not prevent the
       revocation, withdrawal, or other reconsideration of this determination if
                                        20
                     FOR OFFICIAL USE ONLY
       subsequent facts indicate that some aspect of this disclosed practice is
       noncompliant with CAS or Federal Acquisition Regulation.

       Delta IV Launch Services. SMC has continued its reliance on DCAA Audit
Report No. 4461-2006A21000001, dated May 8, 2006, and the DCMA Advance
Agreement on EELV Program Delta IV Lot Accounting, signed by the Divisional
Administrative Contracting Officer on November 13, 2006, to pursue getting another
element of unabsorbed costs, deferred production costs, on contract. The costs resulted
from the original contractor’s venture into the commercial launch market and were
incurred under the same circumstances as the unabsorbed PM&HS costs discussed above.
However, the contractor is now a joint venture comprised of the original contractor and
the second EELV contractor that provides the Atlas V launch vehicle. To date, SMC has:

      entered into an Advance Agreement dated March 25, 2008, with the Joint Venture
       for deferred production costs,

      circulated a draft contract clause (SMC-H0XX) that would recognize a liability
       not-to-exceed $268,000,000 for the recovery of deferred production costs, and

      requested DCAA perform a contract audit of the Joint Venture’s proposal for
       $114 million in deferred production costs for compliance with Federal
       Acquisition Regulation and CAS. The DCAA audit is ongoing.

For the record, the Joint Venture had disclosed to SMC upon submittal of its $114 million
proposal that it had already recovered $10.4 million in deferred production costs on two
ordered missions from the National Aeronautics and Space Administration Geostationary
Operational Environmental Satellites O and P.

        Joint Venture Assessment of Lot Accounting. We note that the Vice
President and Controller of the Joint Venture advised SMC by letter dated
February 14, 2008, that the Joint Venture’s review of the relevant accounting and
auditing standards issued by the accounting profession had resulted in the Joint Venture
concluding that generally accepted accounting standards did not allow the Joint Venture
to continue the practice of lot accounting. The Joint Venture official indicated that lot
accounting is not CAS complaint.

DCAA Corrective Actions. DCAA has initiated several contract audits that, if
performed in accordance with GAGAS and DCAA policy, will remedy the deficiencies
that occurred during the audit of the contractor’s Delta IV EELV Launch Capability
proposals. These include audits of contractor compliance with the following CAS:

      CAS 405, “Accounting for Unallowable Costs,”
      CAS 406, “Cost Accounting Period,” and
      CAS 418, “Allocation of Direct and Indirect Costs.”

                                        21
                     FOR OFFICIAL USE ONLY
   DCAA has also established contract audits to examine contractor compliance with
   Federal Acquisition Regulation Part 31, including Federal Acquisition Regulation
   31.205-23, “Losses on Other Contracts,” and Federal Acquisition Regulation 31.109,
   “Advance Agreements.” We will review the sufficiency of the work performed by
   DCAA at a future date.

   Senior Official Investigations.


   Criminal Investigations. The Defense Criminal Investigative Service, DoD IG,
   continues to investigate the actions taken by acquisition officials relating to the Delta IV
   EELV contracts.

Management Comments and DoD IG Response to
Finding
   DCAA Comments. The Director, Defense Contract Audit Agency, concurred with 4 of
   the 5 recommendations associated with GAO Case #2. The Director, DCAA, did not
   concur with the recommendation to immediately rescind DCAA Audit Report No. 4461-
   2006A210000001, dated May 8, 2006.

   Defense Contract Management Agency Comments. The Executive Director of
   Contracts for DCMA concurred with the two recommendations to DCMA associated
   with GAO Case #2.

   Air Force Space & Missile Systems Center Comments. The Air Force Space and
   Missile Systems Center concurred with the two recommendations to SMC; however, they
   further commented that the SMC Procuring Contracting Officer relied on the DCAA
   audits, the contractor’s certified cost and pricing data, as well as the advance agreements
   entered into by DCMA and the contractor. SMC drew the following three conclusions in
   relation to deferred costs. At the time of award, the Air Force, DCAA, and DCMA
   determined the Delta Expandable Launch Capability contract was consistent with all
   Federal laws, regulations and policies, and did not include any reimbursement for past
   losses. Deferred support costs [PM&HS costs] were recognized in an Advance
   Agreement executed by DCMA and the contractor prior to contract award. Deferred
   support costs are isolated as a stand-alone contract line item. If, as a result of subsequent
   DCAA reviews, a finding is made that the deferred support costs are unallowable, the Air
   Force is postured to take action to make an appropriate contract adjustment.

   The SMC comments further stated that Table 4 of the DoD OIG draft report, “Proposed
   Costs and Payments – EELV,” appears to imply that the Delta IV deferred program
   management and hardware support costs, and deferred production costs, represent
   recoupment of contractor losses. The SMC comments also indicated that four SMC
                                            22
                         FOR OFFICIAL USE ONLY
representatives present at an interview meeting with DoD OIG auditors do not recall one
member using the terminology “roadblocks” in describing the purpose of the
December 13, 2005, meeting, as the DoD OIG report states. Additionally, SMC
maintains that contrary to the DoD OIG draft report that the contractor did not use a 15-
year lot, and that the contractor always maintained that the lot was defined as 42
Common Booster Cores regardless of time and number of missions.

DoD IG Response. Though Air Force Space & Missile Systems Center concurred with
the two recommendations made to SMC, we provide the following clarifications in
relation to their comments to our findings on Case # 2. Two rows in “Table 4. Proposed
Costs and Payments – EELV” identify contractor loss information. The first row
identifies the $835 million loss reported by the contractor on its Delta IV Program via a
press release dated July 15, 2003. The third row identifies $634.5 million in contactor
losses included in a schedule the contractor provided to SMC at a December 13, 2005,
meeting. Each item is provided to inform the reader of the report that losses on the
contractor’s Delta IV Program existed prior to the execution of Air Force Contract No.
FA8816-06-C-0001. As reported, the DCAA audit of the contractor’s proposal for
recovery of unabsorbed program management and hardware support costs did not include
audit procedures to demonstrate that the contractor had excluded these disclosed losses
from its cost proposal. During DoD OIG site visits, SMC contracting officials advised us
that they had not determined that the contractor had excluded the prior losses from its
proposed PM&HS costs, but had instead relied upon the DCAA audit to determine
compliance with the Federal Acquisition Regulations.

The notes taken by the DoD OIG auditors during a fact-finding discussion with SMC
representatives held on September 30, 2008, indicate that one representative described his
involvement in EELV Launch Capability contract negotiations “as a means to clear
roadblocks and get things moving.” The representative provided the comment when
discussing the efforts undertaken by SMC to (i) obtain a CAS waiver for the new
contract, (ii) find a way forward regarding any previous DCAA reported potential CAS
406 noncompliance reported by DCAA in Audit Report No. 4461-2005A21000005, and
(iii) persuade DCAA to recognize an alternative way forward that avoided DCAA
reporting any CAS noncompliances in its subsequent report on the contractor’s revised
Expandable Launch Capability proposal.

We agree with the statement provided by SMC that the contractor defined the lot as 42
Common Booster Cores. However, we note that at the time of the contractor's revised
Delta IV EELV ELC proposal to the Government, DCAA was able to demonstrate using
contractor provided cost and pricing data that, for its revised proposal, the time period for
the lot was 15 years. DCAA arrived at this conclusion based on contractor provided
records that demonstrated the proposed lot costs included (i) costs accumulated in the lot
from 1997 through 2005, and (ii) an estimate for the costs to complete the lot through the
last scheduled launch, which, according to contractor records, was scheduled to occur in
November 2011.


                                         23
                      FOR OFFICIAL USE ONLY
Recommendation, Management Comments and
DoD IG Response
Recommendation B. 1.                     We recommend the Director, Defense Contract
Audit Agency:

      a. Immediately rescind Defense Contract Audit Agency Audit Report No. 4461-
         2006A210000001, dated May 8, 2006.

         DCAA Comments. DCAA reserved comments on Recommendation B.1.a. because
         it believes that the recommendation cannot be adequately evaluated until additional
         information is obtained. Further, the Director, DCAA, stated that DCAA would
         reserve comment on the issue because the DoD OIG did not obtain input or comments
         from the RAM involved in the case; that DCAA was informed by the DoD OIG that
         the RAM’s comments were not obtained due to a separate on-going investigation of
         the same individual by the DoD OIG.

         DoD IG Response. DCAA should rescind Audit Report No. 4461-
         2006A21000001, dated May 8, 2006. The Director, DCAA, did not provide any data
         or information for the DoD OIG to evaluate and assess regarding the findings in this
         case. The DoD OIG decision to not obtain the DCAA regional audit manager’s
         comments as a part of this administrative investigation was made in consideration of
         the separate on-going investigation
                               The DCAA Director’s response did not dispute the DoD OIG
         conclusion that the DCAA audit was flawed and did not demonstrate that the
         contractor’s proposal for recovery of unabsorbed program management and hardware
         support costs excluded: (a) contractor costs incurred in prior accounting periods and
         (b) contractor losses incurred on other contracts. To protect the interests of the DoD
         and the Government, it is vital that DCAA Audit Report No. 4461-2006A21000001
         be rescinded immediately.

         Leaving the report unrescinded may result in payment of up to $170 million in
         additional questionable unallowable costs using the report as a basis (so far only $101
         million has been paid). Also, it is important that we not leave the report unrescinded
         given its potential for use as a basis for negotiating additional contract actions for
         deferred costs of $268 million onto the Evolved Expendable Launch Services contract
         using the DCAA report. The separate on-going investigation of the former RAM by
         the DoD OIG should not preclude DCAA from taking the recommended action. Any
         action in relation to the former RAM can be delayed until completion of the separate
         investigation.



                                             24
                          FOR OFFICIAL USE ONLY
Regarding the assertion that DCAA is reserving comment, the DoD OIG notes that
DCAA officials have previously commented on this same issue. On July 3, 2008, the
Assistant Director, Policy and Plans, DCAA, provided a letter to the GAO in response
to corrective action briefings that the GAO had provided DCAA regarding the GAO
Investigation of Hotline Allegations Regarding Certain Defense Contract Audit
Agency Audits (Code 195132). Enclosed with the DCAA letter was a response from
the DCAA Western Region, the region with management cognizance for the audit in
question. In the Western Region response, signed by the same RAM but in her
current capacity as the Deputy Regional Director, DCAA asserted that:

      They did not agree with GAO that pressures from the contractor and buying
       command affected the audit opinion, or that there were any independence
       issues.
      They believed the audit was performed in accordance with generally accepted
       government auditing standards issued by the Comptroller General of United
       States and that the audit opinion was supported by sufficient audit evidence.
      They were not aware of any factual data that supports the GAO assertion that
       this assignment lacked auditor independence.
      They stated that the CAS 406 noncompliance was resolved when DCAA
       gained a more thorough understanding of lot costing in January 2006.

We note that on June 23, 2009, the Assistant Director, Policy and Plans, DCAA, in an
internal audit guidance memorandum concluded that the contractors’ lot cost
accounting practices used to estimate, accumulate and report unabsorbed costs on the
CAS-covered Delta IV EELV contracts are not in compliance with CAS 406. The
Assistant Director concluded that each of the following Advance Agreements should
be rescinded:

      Delta IV Program Management and Hardware Support, dated
       November 8, 2006,
      EELV Program Delta IV Lot Accounting, dated November 13, 2006, and
      Deferred production costs Advance Agreement, dated March 25, 2008.

It is clear that the actions taken by the regional audit manager during the DCAA audit
of the contractor’s Delta IV EELV Launch Capability cost proposal resulted in a
flawed audit report. However, DCAA continues to resist rescinding DCAA Audit
Report No. 4461-2006A21000001, dated May 8, 2006. DCAA should immediately
rescind this report to protect DoD interests. Therefore, we request that DCAA
reconsider its position on this recommendation and comment on it in response to this
final report.




                                    25
                 FOR OFFICIAL USE ONLY
b. Include the $10.4 million of deferred production costs recovered by the Joint
   Venture contractor on Delta IV Launch Services contracts from the Government
   on two ordered missions (Geostationary Operational Environmental Satellites
   O and P) in the Defense Contract Audit Agency corrective action plan.

   DCAA Comments. DCAA agreed with the recommendation. DCAA is currently
   reviewing the facts associated with the $10.4 million of deferred production costs
   associated with ordered missions Geostationary Operational Environmental Satellites
   (GOES) O and P. Preliminarily, we have determined that the GOES O and P
   missions were contracted for via a National Aeronautics and Space Administration
   firm-fixed price contract. DCAA will review the proposal for this contract and assess
   if it includes deferred production costs. If DCAA finds the proposal does include
   deferred production costs, DCAA will work with the contracting officer and pursue
   recovery of those costs. DCAA expects to complete its review by September 2009.

   DoD IG Response. DCAA comments were responsive.

c. Create a mechanism for reporting external impairments in the Quality Control
   System described in Chapter 2 of the Defense Contract Audit Agency Contract
   Audit Manual, where auditors can report suspected external impairments to
   auditor independence by co-workers, supervisors, or managers to the Defense
   Contract Audit Agency General Counsel.

      1) Document the reporting mechanism for external impairment, including
         policies and procedures, management controls, documentation
         requirements, etc, in the Defense Contract Audit Agency Quality Control
         System.

      2) Provide procedures to include the reporting mechanism for external
         impairment in the Administration of the Defense Contract Audit Agency
         Quality Control System, also described in Chapter 2 of the Defense
         Contract Audit Agency Contract Audit Manual.

   DCAA Comments. DCAA agreed with the recommendation. The DCAA's Quality
   Control System already covers the reporting of external impairments. Contract Audit
   Manual Section 2-S10 Supplement - Description of DCAA Quality Control System,
   requires the reporting of external impairments. Contract Audit Manual Section 2-S
   103.1b.(3) states:

          Occasionally, factors external to DCAA may restrict the audit or interfere with
          the auditor's ability to form independent and objective opinions and
          conclusions. When a limitation is identified, every effort should be made to
          remove the limitation or, failing that, report the limitation. DCAA expects
                                      26
                    FOR OFFICIAL USE ONLY
          each auditor to exercise prudent judgment in establishing audit scope, auditing
          procedures, and appropriate reporting of results.

          Contract Audit Manual Section 2-S103.1b(4) also states:

              Each auditor is responsible for notifying his or her supervisor of any actual
              or potential personal or external impairment in writing.

   Therefore, if an auditor believes an external impairment exists, it should be reported
   to the supervisor. However, to address the IG's concerns, DCAA will expand this
   guidance to address reporting that relates to suspected external impairments to auditor
   independence by co-workers, supervisors, or managers and require this reporting to
   the DCAA General Counsel's office. DCAA will revise their guidance by August 30,
   2009.

   DoD IG Response. DCAA comments were responsive.

d. Establish a policy or procedure on coordination of audit procedures and
   positions between Defense Contract Audit Agency cognizant offices on the Delta
   IV Evolved Expendable Launch Vehicle and the Evolved Expendable Launch
   Vehicle joint venture.

   DCAA Comments. DCAA agreed with the recommendation. According to DCAA,
   this coordination process has already been established. Effective May 2009, the
   Rocky Mountain Branch Office will lead a bi-weekly teleconference to discuss major
   issues relating to the Delta IV Evolved Expendable Launch Vehicle and the Evolved
   Expendable Launch Vehicle joint venture.

   DoD IG Response. DCAA comments were responsive.

e. Issue audit guidance requiring the issuance of a separate Cost Accounting
   Standard noncompliance report whenever the auditor discovers instances of
   Cost Accounting Standard noncompliance during the performance of any type
   of forward pricing audit activity, as currently required by the Defense Contract
   Audit Agency Contract Audit Manual, Section 8-302.7.c.

   DCAA Comments. DCAA agreed with the recommendation. On June 17, 2009,
   DCAA issued an audit alert emphasizing the guidance contained in Contract Audit
   Manual 8-302.7.c that a separate CAS noncompliance audit report should be issued
   when the noncompliance is found in any DCAA audit.

   DoD IG Response. DCAA comments were responsive.




                                       27
                     FOR OFFICIAL USE ONLY
Recommendation B. 2.                   We recommend the Commander, Air Force Space
      and Missiles Systems Center:

      a. Abide by the actions identified in his November 7, 2008, memorandum to DoD
         Inspector General, including the actions to (i) suspend further payments for
         unabsorbed program management and hardware support costs under Contract
         No. An F8816-06-C-0001 and (ii) not conduct further negotiation for unabsorbed
         costs until this matter is resolved.

      b. Track and document all future contracting officer actions taken as a result of
         any audit reports issued by Defense Contract Audit Agency to remedy the
         deficiencies that occurred during the audit of the contractor’s Delta IV Evolved
         Expendable Launch Vehicle Launch Capability proposals.

         SMC Comments. By memorandum dated 18 May 2009, the Vice Commander,
         Headquarters Space and Missile Systems Center, Los Angeles Air Force Base, CA,
         agreed with Recommendation B.2 and stated they have taken action to implement it
         immediately.

         DoD IG Response. SMC comments were responsive.

Recommendation B. 3.                 We recommend the Executive Director,
Contracts, Defense Contract Management Agency:

      a. Abide by the actions identified in his November 18, 2008, memorandum to DoD
         Inspector General, including the plan to reassess the identified advance
         agreements pending receipt of the newly initiated Defense Contract Audit
         Agency audits.

      b. Track and document all future contracting officer actions taken as a result of
         any audit reports issued by Defense Contract Audit Agency to remedy the
         deficiencies that occurred during the audit of the contractor’s Delta IV Evolved
         Expendable Launch Vehicle V Launch Capability proposals, including the
         proposed advance agreements.

         DCMA Comments. The Executive Director, Contracts, Defense Contract
         Management Agency, agreed with Recommendation B.3.

         DoD IG Response. DCMA comments were responsive.




                                           28
                          FOR OFFICIAL USE ONLY
C. Audits of Defective Pricing on Freight-out
   Charges (GAO Case 3)
           DCAA took inadequate corrective actions in response to the prior DoD IG and GAO
           (Case 3) findings on the issuance of three defective pricing audit reports. DCAA
           rescinded the reports based on the GAO conclusion that they were not in compliance with
           GAGAS. However, DCAA did not explain to the contracting officer why it rescinded the
           defective pricing reports. DCAA also issued an untimely and inaccurate audit lead 13 in
           response to the GAO report. Moreover, DCAA provided ineffective audit services and
           advice when it performed incurred cost verification audits and declined to advise the
           contracting officer on the contractor’s proposed settlement. Ultimately, the contracting
           officer settled the transportation (freight-out) costs issue with Contractor B and recovered
           $71,000. Since the contractor failed to submit a detailed cost impact proposal, data
           necessary to accurately determine the amount overcharged to the Government does not
           exist.

           Background. In September 2004, DCAA Location 2 issued three flawed defective
           pricing audit reports stating that freight-out charges included in the contractor’s forward
           pricing rate for material handling did not constitute defective pricing. In January 2007,
           we notified DCAA that the audit working papers did not contain sufficient evidence as
           GAGAS requires in support of the final audit report conclusion. In July 2008, GAO also
           reported that DCAA did not perform sufficient audit work in support of the final audit
           opinion. The DCMA contracting officer independently pursued the freight-out cost issue
           as a noncompliance with CAS 405, “Accounting for Unallowable Costs,” because the
           contracting officer and the contractor had mutually agreed that freight-out costs would be
           unallowable. DCAA performed incurred cost verification audits (in addition to the three
           defective pricing audits) to assist the contracting officer with the CAS 405
           noncompliance. The contracting officer eventually resolved the potential noncompliance
           by recovering $71,000 from the contractor.

           DCAA Corrective Actions. In response to the DoD Inspector General and GAO
           findings, DCAA:

                •   issued an audit lead in July 2008, to DCAA offices cognizant over various
                    Contractor B divisions, stating in part,

                    Our audit work disclosed that outbound freight on origin shipments was
                    incorrectly charged indirect to a material handling pool rather than direct to the
                    contract. Based on the contractor’s agreement with the Administrative
                    Contracting Officer, the contractor agreed that all transportation charges would
                    be paid by the contractor, not the Government. Federal Acquisition Regulation

13
     An audit lead is an alert to DCAA offices to identify high risk areas where additional audit work is advisable.
                                                            29
                                      FOR OFFICIAL USE ONLY
                 47.104-2 14 is the governing regulation on fixed-price contracts. Your office may
                 want to consider looking at the accounting practices for FOB [free on board]
                 freight 15 (Origin) at location(s) under your cognizance.

             •   rescinded the three defective pricing audit reports in September 2008 and
                 determined that no further followup action was needed because the contracting
                 officer had settled the issue for $71,000.

        DoD IG Review of DCAA Corrective Actions. We determined that the corrective
        actions are inadequate.

             •   Inadequate Audit Lead. We noted three significant problems with the audit
                 lead.

                     1) DCAA did not issue the audit lead in a timely manner. DCAA issued the
                        audit lead in July 2008, one year after the contracting officer made his
                        final determination on the freight-out costs. DCAA knew of the
                        noncompliance as early as 2004 and had ample opportunity to issue the
                        audit lead three years before the contracting officer’s July 2007 settlement.

                     2) DCAA failed to convey in the audit lead that the freight-out cost issue
                        involved a CAS 405 noncompliance. The lead also failed to identify the
                        applicable years of the CAS noncompliance. As a result, the cognizant
                        auditors only evaluated the contractor’s practice in 2008 and forward but
                        did not evaluate the practice from 2003 to 2007.

                     3) The audit lead is unclear with respect to the allowability of the freight-out
                        costs. While the lead states that the contractor should pay for freight-out
                        costs, it also indicates that the contractor should charge them direct to the
                        contract. Since these costs are unallowable in accordance with CAS 405,
                        during the period from 1998 through 2003, the lead should have clearly
                        stated that freight-out costs must not be charged on Government contracts,
                        either as a direct cost or an indirect cost. In fact, the audit lead should
                        have indicated that from 2003 forward, the contractor agreed to use the
                        Government Transportation System.

             •   Rescission of Defective Pricing Audit Reports. In its September 2008,
                 memorandum, DCAA did not explain to the contracting officer why it rescinded
                 the three defective pricing audit reports. Without this explanation, the
                 memorandum gives the impression that defective pricing may still exist.



14
   Federal Acquisition Regulation 47.104-2(b) states in part when “advantageous” to the Government; the
contracting officer may require the contractor to prepay the freight charges.
15
   F.O.B. Origin means free of expense to the Government.
                                                       30
                                  FOR OFFICIAL USE ONLY
    The memorandum should have explained that DCAA rescinded the audit reports
    because the audit work did not comply with GAGAS and stated the reasons for no
    longer pursuing the defective pricing issue.

   Ineffective Audit Services and Advice. DCAA failed to provide effective audit
    services and advice to the contracting officer in his pursuit of the potential
    CAS 405 noncompliance. As requested by the contracting officer, DCAA
    performed three incurred cost verifications. However, the contracting officer
    could not use these verifications because the contractor had charged the
    Government for the negotiated freight-out costs, not the incurred freight-out costs.
    Therefore, DCAA should have recommended to the contracting officer that it
    perform an analysis of negotiated costs rather than incurred costs. As a result,
    DCAA wasted auditor and contracting officer resources in performing and
    analyzing the results of the incurred cost verifications. DCAA should rescind the
    incurred cost verification audit reports since they do not reflect the negotiated
    freight-out costs charged to the Government, and because the contracting officer
    could mistakenly use the reports for unintended purposes.

    In addition, the DCAA supervisor did not provide effective advice when the
    contracting officer requested DCAA’s assistance to evaluate the proposed
    settlement of freight-out cost. The DCAA supervisor declined to comment on the
    proposed settlement because it is “… really a negotiated amount not a calculated
    amount and not within DCAA’s realm of cognizance because we can’t comment
    on negotiable items.” DCAA should have recommended that the contracting
    officer continue to pursue a detailed cost impact proposal from the contractor and
    point out his authority to withhold payments in accordance with Federal
    Acquisition Regulation 30.604(h)(4)(i)(2) if the contractor does not provide the
    proposal in a timely manner. Further, DCAA should have advised the contracting
    officer that the impact on the Government may be significantly higher than the
    proposed settlement. Absent a detailed cost impact, DCMA did not have the data
    necessary to determine the contractor’s freight-out overcharge to the Government.

    We noted that these actions may not have been approved by or coordinated with
    the FAO manager. The supervisor signed the incurred cost verification audit
    reports (as well as the defective pricing audit reports) on behalf of the FAO
    manager, and did not consult with the FAO manager prior to responding to the
    contracting officer’s request for audit assistance. In August 2008, DCAA revised
    its procedures to require a FAO manager’s signature on all DCAA audit reports.

    As a result of DCAA’s actions, the contracting officer did not receive the data
    necessary to make an informed decision on the CAS 405 noncompliance and
    negotiate a fair and reasonable settlement on behalf of the Government. Without
    a cost impact proposal the amount of Government loss cannot be determined. The
    Government cannot reopen the noncompliance because the contracting officer’s
    $71,000 settlement is final and irrevocable.
                                     31
                  FOR OFFICIAL USE ONLY
Management Comments and DOD IG Response to
Finding
   DCAA Comments. DCAA agreed to explain to the contracting officer why it rescinded
   the reports. However, DCAA disagreed that the rescission of the defective pricing audit
   reports gave the impression that defective pricing may exist. In support of issuing the
   incurred cost verification audits, DCAA stated, “It should be noted that DCAA provided
   the incurred cost verifications at the request of the contracting officer.” DCAA defended
   the supervisor’s decision not to comment on the proposed settlement by stating, “the
   DCAA supervisor did advise the contracting officer on the inadequacy of the contractor’s
   cost impact submission, but did not believe it was appropriate to comment on the
   contracting officer's negotiation position, as that is beyond the role of the independent
   audit….An independence concern may exist if DCAA were to provide an opinion on a
   negotiation position.” (emphasis added)

   DoD IG Response. DCAA comments were responsive. However, we disagree that
   issuing the incurred cost verifications was justified simply because the contracting officer
   asked for them. As the independent audit advisor to the contracting officer, DCAA had
   an obligation to recommend alternative audit procedures or approaches that would have
   better assisted the contracting officer in evaluating the noncompliance.

   In responding to the contracting officer, DCAA did not advise the contracting officer on
   the inadequacy of the contractor’s cost impact submission. We also disagree with the
   DCAA position that advising the contracting officer on the contractor’s proposed
   settlement may have created an independence concern. The contracting officer asked
   DCAA to review the contractor’s proposed cost impact, not his negotiation position.
   Reviewing the contractor’s cost impact methodology would not have violated the
   independence standards established in GAGAS or the DCAA mission established in DoD
   Directive 5105.36. The supervisor’s refusal to assist the contracting officer was
   inconsistent with the DCAA Contract Audit Manual, Section 15-403.2, which states:

          The auditor will act as the accounting advisor to the contracting officer in the negotiation
          process. In this capacity, provide the contracting officer financial information and audit
          counsel which will assist in the conclusion of a fair and reasonable price agreement with
          the contractor. Whether in actual attendance at the conference or through support from
          the audit office, the auditor…. (c) will evaluate any additional cost information the
          contractor may submit. (Emphasis added)

   Therefore, DCAA should have reviewed the adequacy of the contractor’s cost impact
   calculation and advised the contracting officer accordingly. Not doing so resulted in
   DCAA’s failure to fulfill its duty as an effective audit advisor. Nevertheless, the DCAA
   concurrence with Recommendation C.1. below, involving branch manager approval of
   responses to contracting officer requests for audit assistance, will help to improve DCAA
   advice and services provided at DCAA Location 2.
                                                 32
                           FOR OFFICIAL USE ONLY
Recommendation, Management Comments and
DoD IG Response
Recommendation C.                     We recommend that the Branch Manager, Defense
Contract Audit Agency Location 2:

      1. Require branch manager approval in responding to contracting officer requests
         for audit assistance.

         DCAA Comments. DCAA agreed with the recommendation. Due to conditions
         found at this FAO, DCAA will institute additional management controls for a one-
         year time period commencing July 1, 2009. The branch manager will approve all
         correspondence responding to contracting officer requests for audit assistance for this
         time period for other than forward pricing audits. DCAA believes limiting this
         process to other than forward pricing audits will meet the DoD IG’s objectives based
         on the conditions found in this case and make it manageable for the FAO to
         implement. During this time, the branch manager will provide the necessary
         supervisory feedback to ensure supervisors are supportive to the contracting officers'
         requests while maintaining the necessary auditor independence required by the
         standards. After this time period, the branch manager will assess the need to further
         continue this process and provide her recommendation to the Regional Director for
         his decision.

         DoD IG Response. DCAA comments were responsive. On July 31, 2009, DCAA
         location 2 issued a Standard Procedure supplement for delegation of signature
         authority for audit reports and other audit related office documents.

      2. Issue a memorandum to the contracting officer to explain why the Defense
         Contract Audit Agency rescinded the three defective pricing audit reports.

         DCAA Comments. DCAA agreed with the recommendation. By May 31, 2009,
         DCAA will issue the memorandum to the contracting officer that the three reports
         were rescinded due to the audit work not complying with GAGAS. DCAA will also
         clarify to the contracting officer that this does not mean that defective pricing was
         found.

         DoD IG Response. DCAA comments were responsive. On May 29, 2009, DCAA
         location 2 issued a memorandum to clarify to the contracting officer that resending
         the three defective pricing audit reports may have given the impression that defective
         pricing may exist, when in fact, DCAA audit did not disclose defective pricing.




                                             33
                           FOR OFFICIAL USE ONLY
3. Rescind the three incurred cost verification Audit Report Numbers 4181-
   2003I17900009, 4181-2003I17900010, and 4181-2003I17900011.

   DCAA Comments. DCAA agreed with the recommendation. Although DCAA
   believes it complied with the contracting officer's request to address the DoD IG's
   concerns, DCAA will rescind the subject reports by May 31, 2009. To address the
   DoD IG’s concerns DCAA will state that these reports are being rescinded since the
   DoD IG concluded that these reports were not value added to the contracting officer
   in his pursuit of a final settlement.

   DoD IG Response. DCAA comments were responsive. On June 3, 2009, DCAA
   location 2 issued a memorandum to the contracting officer rescinding the three
   incurred cost verification audit reports.




                                      34
                    FOR OFFICIAL USE ONLY
D. Audit of Billing System (GAO Case 4)
        DCAA corrective actions are not sufficient to address all concerns identified in the GAO
        (Case 4) and DoD Inspector General reviews of Contractor C’s 16 billing system audit.
        The FAO did not remove Contractor C from the direct bill program even though it did not
        have sufficient evidence to support Contractor C’s participation. Direct bill authorization
        allows a contractor to submit vouchers directly to Government disbursing offices without
        DCAA review and provisional approval, thereby increasing the Government’s risk of
        overpaying Contractor C. Existing DCAA guidance does not adequately address
        contractor participation in the direct bill program. Therefore, revisions to audit guidance
        are needed to help ensure that only contractors with acceptable billing system internal
        controls are allowed to direct bill.

        Background. In a report dated September 16, 2005, DCAA issued an opinion that
        Contractor C’s billing system and related internal controls were adequate. DCAA, acting
        as the representative of the contracting officer, is allowed to authorize contractors that
        maintain adequate billing systems and related internal controls to submit interim public
        vouchers directly to Government disbursing offices. The FAO approved Contractor C for
        direct billing based on this audit. Both the DoD Inspector General and GAO reviews of
        the billing system audit concluded that: the audit report opinion was not adequately
        supported by the working papers, the draft audit opinion was changed without sufficient
        documentation, and the auditor did not perform sufficient work to support conclusions.

        DCAA Corrective Actions. DCAA is taking various corrective actions that, when
        completed, should resolve all concerns except for guidance on contractor participation in
        the direct bill program. The FAO notified the DCMA Administrative Contracting Officer
        on May 22, 2008, that the billing system audit report should no longer be relied on. The
        FAO also planned to complete an audit, Assignment No. 4181-2008K17740003, by
        January 23, 2009, that would determine the adequacy of the accounting system for
        segregation and billing of costs; specifically addressing concerns identified by the GAO
        and DoD Inspector General reviews such as the monitoring of indirect billing rates and
        billing in compliance with applicable regulations and contract provisions; and covering
        the annual testing of contractor eligibility for the direct bill program. 17 DCAA
        Headquarters has also taken multiple corrective actions related to working paper
        documentation, oversight of audits, and the overall work environment that they believe
        will improve all DCAA audits. See Appendix C for additional details. We will evaluate
        all corrective actions once completed to ensure DCAA has adequately addressed
        concerns related to Contractor C’s billing system audit.

16
   Contractor C produces and supports military display systems, global position systems, and satellite
communications system. For calendar year 2004, Contractor C generated sales over $99 million, including
$92 million from DoD contracts.
17
   DCAA previously referred to this as the annual testing of paid vouchers which includes a review of paid vouchers
submitted directly to Government paying offices.
                                                        35
                                  FOR OFFICIAL USE ONLY
        Contractor Eligibility to Direct Bill. DCAA did not remove Contractor C from the
        direct bill program even though it did not have sufficient evidence to support
        Contractor C’s original admittance nor its continued participation. As discussed above,
        the billing system audit did not contain sufficient evidence to support the audit opinion
        that Contractor C’s billing system was adequate. The ongoing surveillance of the billing
        system that the FAO performed in the FY 2004 incurred cost audit 18 and the annual
        testing of contractor eligibility also did not sufficiently document the auditor’s
        understanding and evaluation of the significant billing system internal controls as
        required by DCAA guidance. Finally, the FAO has not yet completed a review of billing
        system controls associated with a new accounting system that Contractor C implemented.
        Therefore, Contractor C’s participation in the direct billing program is inappropriate at
        this time.

                Incurred Cost Audit. In the FY 2004 incurred cost audit, the FAO did not
        identify or evaluate Contractor C’s significant billing system internal controls on a
        completed “Survey of Contractor’s Organization, Accounting System, and System of
        Internal Controls” questionnaire, as required, to support nonmajor 19 contractor’s
        participation in the direct bill program. Instead, the FAO used a contractor-completed
        Internal Controls questionnaire which only marked “yes” for the question on the
        contractor’s billing system policies and procedures.

                Annual Testing of Contractor Eligibility. During the annual testing of
        contractor eligibility, performed under Audit Assignment No. 4181-2007A11050004,
        completed on August 7, 2007, the FAO did not include any information related to
        significant billing system internal controls. The FAO based its conclusion that no
        significant exceptions warranting further review of the billing system or removal of
        Contractor C from direct billing existed solely on a review of paid vouchers. A paid
        voucher review, even when no errors are identified, does not provide the evidence needed
        to document the significant internal controls or support a conclusion that they are
        operating effectively.

                Accounting System Audit. In Assignment No. 4181-2008K17740003, the FAO
        identified that Contractor C implemented a new accounting system in May 2008.
        Because the FAO has not completed the review of the new system’s billing controls, no
        evidence exists to support an opinion that adequate billing internal controls exist in the
        new system.

        DCAA Guidance on Direct Bill Program. Current DCAA guidance is not sufficient to
        ensure that FAOs are adequately evaluating nonmajor contractors’ significant billing
        system internal controls to support continued participation in the direct bill program.
        Adequate billing system internal controls are essential for contractors to participate in the
18
   DCAA completed the audit in December 2007. This is the latest incurred cost audit that DCAA has completed on
Contractor C.
19
   A nonmajor contractor is one with less than $90 million in auditable contract dollars.
                                                      36
                                 FOR OFFICIAL USE ONLY
     direct bill program. The FAOs are not required to perform the annual testing of
     contractor eligibility at nonmajor contractors and, when performed, auditors are directed
     to examine the Internal Controls questionnaire completed during the annual incurred cost
     audit. However, the Internal Controls questionnaire guidance does not state that auditors
     must perform an evaluation of internal controls to support the contractor’s continued
     participation in the direct bill program. As a result, DCAA needs to revise the guidance
     to ensure auditors perform adequate steps and obtain sufficient evidence related to the
     billing system internal controls. Additionally, DCAA guidance does not address actions
     the FAOs should take when it is determined that sufficient evidence does not exist to
     support the authorization to participate in the direct bill program. DCAA is responsible
     for authorizing contractors to direct bill and should, therefore, revise and clarify its
     current guidance to address these issues. Otherwise, DCAA may allow contractors that
     should not qualify to participate in the direct bill program, thus increasing the
     Government’s risk of overpaying contractors.

     Subsequent DCAA Actions. On January 14, 2009, DCAA Headquarters provided a
     copy of the FAO January 7, 2009, memorandum rescinding Contractor C’s direct bill
     authorization. The FAO had identified deficiencies in Contractor C’s billing system
     including failure to use approved provisional billing rates and prevent errors in vouchers.
     DCAA informed us in its response to our draft of this report that a May 1, 2009, DCAA
     report cited the contractor's accounting system as being inadequate for accumulating and
     billing costs under Government contracts. DCAA recommended the contracting officer
     pursue contract payment withholds until the contractor corrects its system. The
     contractor will remain off direct billing until the contractor has corrected its system and
     DCAA completes a followup audit to ensure the contractor has implemented corrective
     actions.

Recommendation, Management Comments and
DoD IG Response
Recommendation D.                     We recommend the Director, Defense Contract Audit
Agency:

     1. Revise guidance on ongoing surveillance for nonmajor contractors to ensure
        field audit offices gather and maintain sufficient evidence related to evaluation
        of billing system internal controls to support the contractor’s continued
        participation in the direct bill program.

          DCAA Comments. DCAA agreed in principle with the recommendation and
          explained its planned approach. By September 30, 2009, DCAA will complete an
          assessment of the current guidance for ensuring that sufficient evidence is obtained to
          support the nonmajor contractor's continued participation in the direct bill program.
          DCAA has preliminarily concluded that the annual testing for contractor eligibility
                                              37
                            FOR OFFICIAL USE ONLY
   for direct bill assignment is sufficient evidence to support a nonmajor contractor's
   eligibility for continuing on the direct bill program and, in October 2008, emphasized
   to its auditors that a sufficient number of paid vouchers should be reviewed during
   this assignment to provide reasonable assurance that the contractor's procedures
   continue to be acceptable for direct billing. DCAA believes this is sufficient evidence
   as all payments are provisional and subject to later audit, and the risks do not warrant
   an evaluation of the billing system internal controls. DCAA agreed to require annual
   testing at all nonmajor contractors with over $15 million in auditable costs and will
   test vouchers at contractors with less than $15 million, at least once every three years.

   DoD IG Response. The DCAA proposed action does not meet the intent of our
   recommendation. An evaluation of the billing system internal controls is required for
   all contractors, no matter the amount of auditable costs, to participate in direct bill.
   The Defense Federal Acquisition Regulations Supplement 242.803(b)(i)(C) states the
   contract auditor may authorize direct billing for contractors with approved billing
   systems. Neither the annual testing for contractor eligibility for direct bill nor the
   postaward accounting system review for nonmajor contractors provides adequate
   coverage of the billing system and its internal controls. Therefore, these assignments
   are not considered sufficient to support a nonmajor contractor’s continued
   participation in direct bill. DCAA should consider additional options to comply with
   the existing regulations requiring contractors to have an approved billing system to
   participate in direct bill. Therefore, we request that DCAA reconsider its response to
   this recommendation.
   DCAA should consider additional options to comply with the existing regulations
   requiring contractors to have approved billing systems to direct bill.
2. Direct Headquarters Quality Assurance Division to perform a review of
   nonmajor contractors’ participation in the direct bill program to verify that
   sufficient evidence exists to support their participation.

   DCAA Comments. DCAA agreed with the recommendation but offered an
   alternative approach. DCAA proposed that its Headquarters Policy and Plans
   Directorate perform the review after implementation of the revised DCAA policy,
   which is described in their response to Recommendation D.1. above. DCAA believed
   it would be more appropriate for the Policy and Plans Directorate to perform this
   review, as the Integrity and Quality Assurance Directorate is dedicated to performing
   internal quality assurance reviews. DCAA estimated the review would be completed
   by September 2010.

   DoD IG Response. The DCAA proposed action does not meet the intent of our
   recommendation. The recommendation was made to address our concern that DCAA
   has not reviewed nor tested the billing system and its internal controls at some
   nonmajor contractors currently participating in the direct bill program. Additionally,
   as indicated in our response to the DCAA comments on Recommendation D.1. above,
   the proposed revision to DCAA policy is not sufficient to ensure only nonmajor
   contractors with approved billing systems participate in the direct bill program.
                                        38
                     FOR OFFICIAL USE ONLY
   Therefore, we have added Recommendation D.4 to the report to address this concern.
   Once DCAA has determined the appropriate approach to assessing nonmajor
   contractors’ eligibility to participate in direct bill and issued the guidance, a review to
   verify proper implementation should be conducted. Therefore, we request that
   DCAA reconsider its response to this recommendation.

3. Issue guidance requiring immediate removal of a contractor from direct bill
   when sufficient evidence is not available to support the authorization to direct
   bill.

   DCAA Comments. DCAA agreed with the recommendation and explained actions
   already taken and planned. On April 15, 2009, DCAA issued guidance requiring
   DCAA to take major contractors off the direct bill program within 30 days and
   commence a new billing system audit unless the current contractor billing system had
   been audited and deemed to be adequate. DCAA also reiterated its planned approach
   for nonmajor contractors as explained in the DCAA response to Recommendation
   D.1. above, with an estimated completion date of March 2010 for the FY 2010
   reviews. DCAA plans to remove nonmajor contractors from direct bill within 30
   days when deficiencies are identified. DCAA also restated its opinion that its
   proposed process would provide sufficient evidence to support a contractor’s
   participation in the direct bill program.

   DoD IG Response. See our response to the DCAA comments on Recommendation
   D.1. above regarding our disagreement with the proposed revision to DCAA policy.
   We consider the guidance for major contractor participation in direct bill issued on
   April 15, 2009, to be reasonable; however, DCAA should take similar actions to
   cover all nonmajor contractors’ participation in direct bill. We have added
   Recommendation D.4 to the report to address our concern that ineligible nonmajor
   contractors may be participating in the direct bill program increasing the
   Government’s risk of overpayments occurring. Therefore, we request that DCAA
   reconsider its response to this recommendation.

4. Remove, within 60 days of the issuance of this report, all nonmajor contractors
   participating in the direct bill program for which DCAA has not performed a
   current billing system review including testing of key internal controls.




                                         39
                     FOR OFFICIAL USE ONLY
E. Forward Pricing Audits (GAO Case 8)
        DCAA corrective actions addressed some issues identified by the GAO report; however,
        additional actions are needed in relation to forward pricing audits 20 performed at
        Location 3. 21 DCAA should take additional actions to improve audit documentation,
        determine that improvements in audit quality have been achieved and sustained in
        Location 3 audit work, and mitigate potential adverse impacts on contract awards based
        on inadequate DCAA forward pricing audits.

        Background. The GAO review questioned the reliability of at least 62 forward pricing
        audit reports issued in FY 2004 through FY 2006 based on two former supervisors 22
        comments. During interviews, the former supervisors at Location 3 told GAO
        investigators they did not always review working papers on forward pricing audits before
        the report was issued. The supervisors approved and signed 62 of 113 reports issued by
        Location 3 during FYs 2004 through 2006. Trainee auditors performed 18 of the 62
        forward pricing audits. The retired supervisors said that the trainee auditors did not have
        the knowledge or experience necessary to perform the complex audits they were assigned
        to. The supervisors also stated that due to time constraints for completing audits, they
        were unable to provide the supervision necessary for effective trainee auditor
        performance such as ensuring that supervisory review comments are properly addressed
        before finalizing and issuing an audit report.

        DoD IG Review. Our review concluded that 17 of 18 forward pricing audits performed
        by trainee auditors did not comply with the applicable GAGAS. 23 The 18 forward
        pricing audits consisted of 9 agreed-upon procedures, 8 price proposals, and 1 specified
        cost element. The 17 audits had one or more of the following deficiencies:

                    lack of professional judgment;
                    appropriate procedures/criteria not defined;
                    inadequate documentation or insufficient evidence;
                    inadequate supervision; and
                    failure to comply with all reporting requirements.


20
   Examples of forward pricing audits include price proposals, integrated product team, specified cost elements,
agreed-upon procedures, and forward pricing rate agreements. No opinion is issued on agreed-upon procedures.
21
   Contractor E at Location 3 is a publicly traded company that designs Government business and defense weapons
systems.
22
   Both supervisors retired in early 2007.
23
   GAGAS incorporates the general standard on criteria for attestation engagements and requires auditors to also
follow all the GAGAS general standards when performing work in compliance with GAGAS. It also incorporates
the American Institute of Certified Public Accountants fieldwork and reporting standards for attestation
engagements. Additionally, GAGAS provides additional fieldwork and reporting standards for attestation
engagements performed in compliance with GAGAS.
                                                       40
                                 FOR OFFICIAL USE ONLY
        Corrective Actions from the FY 2006 DCAA External Quality Control System
        Review. 24 Our review of the agreed-upon procedures identified deficiencies similar to
        those found in the FY 2006 external quality control system review. The FAO performed
        all 9 agreed-upon procedures reviewed prior to DCAA implementing recommendations
        from the FY 2006 external quality control system review. We recommended that DCAA:

               consolidate all guidance on performing agreed-upon procedures in a separate
                Contract Audit Manual section;
               revise the agreed-upon procedures pro forma report;
               identify and track all agreed-upon procedures; and
               require management to monitor agreed-upon procedures to ensure that they are
                performed in accordance with GAGAS.

        In November 2006, DCAA developed training specific to agreed-upon procedures and in
        September 2008, included sections in Contract Audit Manual specific to performing and
        reporting on agreed-upon procedures engagements. DCAA also required RAMs and
        FAO managers to approve the proposed procedures and review agreed-upon procedures
        reports before issuance. These corrective actions, when properly implemented, should
        improve the DCAA performance of agreed-upon procedures. We will review the
        effectiveness of the DCAA corrective actions relating to agreed-upon procedures when
        we perform the FY 2009 peer review.

        DCAA Headquarters Corrective Actions. DCAA Headquarters has taken multiple
        corrective actions related to working paper documentation, oversight of audits and the
        overall work environment that they believe will improve all DCAA audits. See
        Appendix D for additional details. DCAA also issued the Computer Managed Training
        Library 25 Course 1269, “Working Paper Documentation,” in May 2007, and updated it in
        August 2008, to incorporate recent guidance and to reemphasize existing guidance.
        However, DCAA does not require auditors to take this course. Additionally, on
        August 29, 2008, DCAA Headquarters issued revised guidance on delegation of signature
        authority policy requiring the FAO manager to sign all audit reports. The former
        supervisors signed all 18 forward pricing reports reviewed thus eliminating a key
        management control. A higher-level manager review of an audit report should help
        ensure the soundness of the audit logic used and the accuracy of the audit report issued.

        DCAA FAO Organizational Changes. Effective October 12, 2008, Location 3 was
        reorganized into two separate DCAA FAOs which should help to reduce the supervisory
        span of control. Prior to the reorganization, Location 3 had 6 supervisory auditors and
        44 auditors. One former supervisor also told GAO that they supervised a team with
        seven auditor trainees. Now each FAO has 4 supervisors and an average of 28 auditors.
        A team at the two offices generally includes two auditor trainees and four experienced

24
  Another name for this review is a peer review.
25
  The Computer Managed Training Library is the DCAA advanced distributed learning system. These courses are
technology-based, self-paced learning modules.
                                                    41
                                FOR OFFICIAL USE ONLY
         auditors allowing a supervisor more time to provide adequate supervision. This
         organizational change should help the two FAOs comply with GAGAS and DCAA
         guidance.

         DCAA FAO Corrective Actions. For 47 of the 62 audit reports that related to
         negotiated contract pricing actions, DCAA issued a memorandum to the requestors on
         September 2, 2008, informing them that the audits were not in compliance with GAGAS
         and that no reliance should be placed on the audit conclusions. For the 15 audits that did
         not result in a contract award, DCAA placed memorandums dated September 2, 2008, in
         the Integrated Recorded Information Management System 26 for the applicable audits
         stating that the audits were not in compliance with GAGAS. The FAO also selected two
         firm-fixed price pricing actions for postaward review based on the dollar values of the
         proposal ($64 million and $11 million 27 ) and GAO findings. The FAO should, however,
         perform additional postaward reviews to mitigate the risk or potential negative impact on
         the firm-fixed price contract awards. In particular, the 11 firm-fixed price contract
         awards based on audit reports issued prior to the supervisor signing off on all working
         papers should be considered high risk. The FAO should select additional firm-fixed price
         awards for postaward review from this group.

Recommendation, Management Comments and
DoD IG Response
Recommendation E.1.                                We recommend the Director, Defense Contract
Audit Agency:

         a. Include the revised Computer Managed Training Library Course 1269,
            “Working Paper Documentation,” in the required auditor training curriculum.

             DCAA Comments. DCAA agreed with the recommendation. DCAA will require
             all auditors to complete the subject training by November 30, 2009. DCAA will
             include the substance of the CMTL in the training curriculum during its revision as
             part of the Strategic Plan Objective on life-cycle training.

             DoD IG Response. DCAA comments were responsive.




26
   Integrated recorded information management system is the primary DCAA record storage and retrieval
mechanism. Audit offices are required to save all official working paper audit files in integrated recorded
information management system.
27
    One proposal was $64 million and was selected because it was the largest firm-fixed price pricing action. The
second was for $11 million and was selected because it was the largest firm-fixed price pricing action where the
work papers were approved after report issuance.
                                                         42
                                   FOR OFFICIAL USE ONLY
      b. Direct the Quality Assurance Division to perform an internal quality assurance
         review of Location 3 and the new field audit office to assess the quality of
         current audit work and followup on appropriate actions to correct any identified
         deficiencies.

          DCAA Comments. DCAA agreed with the recommendation and will perform a
          quality assurance review by December 2009 at Location 3 and the new field audit
          office.

          DoD IG Response. DCAA comments were responsive.

Recommendation E.2.                     We recommend the Resident Auditor, Defense
Contract Audit Agency Location 3, perform postaward reviews of all firm-fixed priced
contracts, including any associated forward pricing rate agreements, awarded over
$10 million where the supervisor approved the working papers after report issuance as
discussed in Case 8 of the GAO investigative report.

      DCAA Comments. DCAA agreed with the recommendation and will complete the
      postaward audits of the firm-fixed price contracts awarded over $10 million by
      June 2010.

      DoD IG Response. DCAA comments were responsive.




                                             43
                           FOR OFFICIAL USE ONLY
F. Audit of Compensation System (GAO Case 9)
   While DCAA issued a new audit report on the compensation system that, in our opinion,
   adequately addresses the DoD Inspector General and GAO (Case 9) concerns regarding
   sufficiency of audit evidence, DCAA did not adequately qualify the results of the new
   audit report. The report qualification does not include or adequately explain the
   circumstances which significantly impacted the scope and results of the audit. Further,
   the auditor also did not plan additional audit procedures or obtain FAO manager approval
   for a large budget increase. DCAA needs to issue a supplemental audit report to correct
   the report qualification paragraph.

   Background. In Audit Report No. 4181-2005I13020001, September 30, 2005, DCAA
   issued an opinion that a contractor’s compensation and related internal controls were
   adequate. In January 2007, we notified DCAA that the audit did not include sufficient
   evidence to support the audit opinion and recommended that DCAA rescind the report.
   In July 2008, GAO also reported that DCAA did not obtain sufficient evidence in support
   of the opinion. DCAA initially refused to rescind the report, but it initiated another
   compensation system audit. DCAA eventually rescinded the original report (Audit
   Report No. 4181-2005I13020001) on September 15, 2008.

   DCAA Corrective Actions. Under Audit Report No. 4181-2007I13020001,
   June 13, 2008, DCAA issued a new compensation system audit report stating that the
   compensation system was “inadequate in part.” In Audit Report No. 4181-
   2007I13020001S1, September 5, 2008, DCAA supplemented the new report to
   incorporate $2.4 million in unreasonable compensation costs.

   DoD IG Review of DCAA Corrective Actions: We reviewed supplemental Audit
   Report No. 4181-2007I13020001S1 to determine if it complies with GAGAS and related
   DCAA policy. While the supplemental audit includes sufficient evidence in support of
   the opinion, we noted the following deficiencies.

         Inadequate Qualification – The purpose of a qualification is to disclose any
          circumstances which have a significant impact on the conduct, scope or results of
          an audit. DCAA failed to adequately qualify the results of the compensation audit
          for the three circumstances described below.

              1) The qualification included on Pages 2 and 3 of the report does not
                 sufficiently or clearly explain why the auditor could not evaluate the
                 reasonableness of fringe benefits. For example, DCAA cites a CAS 403
                 noncompliance as a reason for not evaluating fringe benefits but the
                 CAS 403 noncompliance, as described, would not preclude the auditor
                 from determining the reasonableness of fringe benefits.

                                          44
                        FOR OFFICIAL USE ONLY
                 2) DCAA should have qualified the audit results of unreasonable executive
                    compensation costs for the lack of executive job descriptions. As
                    emphasized in current DCAA guidance and DCAA Audit Report
                    No. 4181-2005I13020001, job descriptions are critical for ensuring a valid
                    comparison to external pay surveys. Therefore, the auditor may have
                    disclosed a significantly higher or lower amount of unreasonable
                    executive compensation costs if job descriptions were available.

                 3) DCAA did not qualify the audit results for any subsequent audits that may
                    supplement the audit findings on fringe benefits, as Contract Audit
                    Manual 5-812.3b. requires.

             Inadequate Planning. The auditor performed additional audit procedures as a
              part of the supplemental audit but did not prepare planning documents to
              demonstrate adequate planning and approval of the additional steps.

             Budget Increase Not Approved. During the audit, the auditor requested a
              budget increase of 340 hours. While the auditor obtained approval for the
              increase from his supervisor, he did not obtain approval from the FAO manager as
              the DCAA FAO procedure requires.

Recommendation, Management Comments and
DoD IG Response
Recommendation F.                  We recommend the Branch Manager, Defense
Contract Audit Agency Location 2, issue a supplemental audit report to correct the report
qualification.

      DCAA Comments. DCAA agreed with the recommendation and will supplement Audit
      Report No. 4181-2007I13020001S1 by September 30, 2009, to address our concerns.
      DCAA is also assessing the guidance contained in Contract Audit Manual 5-812.3 and
      the need for including a qualification on fringe benefits in every compensation system
      audit report.

      DoD IG Response. DCAA comments were responsive.




                                             45
                           FOR OFFICIAL USE ONLY
G. Audit of Purchasing System (GAO Case 10)
   We confirmed the GAO (Case 10) finding that the DCAA working papers for an audit of
   a contractor’s purchasing system and related internal controls do not include sufficient
   evidence in support of the reported audit opinion, as GAGAS 6.04 b requires. The
   auditor did not perform sufficient independent tests to ensure that the contractor complies
   with established policies and procedures or that the key controls are operating effectively.
   While DCAA relied on the DCMA contractor purchasing system review and contractor
   internal reviews, the auditor did not follow DCAA procedures for establishing reliance on
   these reviews. In addition, the auditor did not properly date the working papers in
   accordance with DCAA policies. DCAA performed another audit of the purchasing
   system and related internal controls. We will review the adequacy of it in a followup
   review.

   Background. In Audit Report No. 4181-2005A12030001, dated September 29, 2005,
   DCAA issued an opinion that a contractor’s purchasing system and related internal
   controls were “adequate.” In July 2008, GAO reported that the working papers did not
   include sufficient evidence to support the final opinion. According to GAO, DCAA
   relied on the DCMA contractor purchasing system review in which the conclusions were
   based word for word on the contractor’s response to a questionnaire without independent
   testing of controls.

   DCAA Corrective Actions. DCAA did not agree with the GAO but stated that it would
   address the GAO concerns in a new audit of the purchasing system and related internal
   controls. On January 23, 2009, DCAA issued its new purchasing system Audit Report
   No. 4181-2008A12030001. We will review the adequacy of the new purchasing system
   audit and provide our results in a subsequent report.

   DoD IG Review of DCAA Audit. We reviewed the report and working papers to
   determine if it complies with GAGAS and related DCAA policies. We noted the
   following noncompliances:

         Insufficient Evidence to Support Audit Opinion – The working papers do not
          include sufficient evidence in support of the audit opinion. The auditor did not
          perform sufficient independent tests to ensure that the contractor complies with
          established policies and procedures or that key controls are operating effectively.
          Specifically, the auditor did not conduct sufficient independent tests in the
          following areas of the purchasing system:

              o   Purchase Orders and Contract Clauses
              o   Management of Purchasing
              o   Selecting the Source
              o   Pricing and Negotiation
              o   Subcontract Award and Administration
                                          46
                         FOR OFFICIAL USE ONLY
       Therefore, the working papers do not comply with GAGAS 6.04 b., requiring
       sufficient evidence to provide a reasonable basis for the conclusion expressed in
       the report. Although the auditor relied on the results of the DCMA contractor
       purchasing system review and contractor internal reviews, the auditor did not
       follow DCAA policies in Contract Audit Manual 4-1000 for placing reliance on
       those reviews. For example, the auditor did not sufficiently document the basis
       for evaluating the competence, independence, and objectivity of the reviews, and
       did not document the review of working papers supporting the review conclusions
       to ensure that the review tests satisfied the audit objectives. Accordingly, DCAA
       and contracting officials should not rely on the DCAA audit conclusions.

      Working Papers Not Dated. The auditor did not properly date most of the
       working papers in accordance with Contract Audit Manual 4-403j. The auditor
       dated most working papers as “August, 2005,” without recording the day of the
       month that the auditor completed the working papers.

Subsequent FAO Actions. On January 15, 2009, shortly after we notified DCAA of
our draft results, DCAA rescinded Audit Report No. 4181-2005A12030001. Therefore,
we deleted a planned recommendation to rescind the report.




                                      47
                    FOR OFFICIAL USE ONLY
H. DCAA Audit of Billing System (GAO Case 11)
   We confirmed the GAO (Case 11) finding that the DCAA working papers for a billing
   system audit report failed to provide adequate support for dropping billing system
   internal control weaknesses found by the first auditor. The supervisor and first auditor
   assigned to this audit had disagreed over whether the internal control weaknesses
   represented significant weaknesses. DCAA has since clarified its guidance on
   determining the significance of internal control weaknesses. In noncompliance with
   DCAA policies, DCAA also did not immediately pull the contractor’s direct billing
   authority or perform a peer review of the audit. DCAA rescinded the billing system audit
   report in response to our draft findings. DCAA should promptly incorporate the guidance
   clarifications in the DCAA Contract Audit Manual.

   Background. In Audit Report No. 4181-2006I11010001, dated December 21, 2007,
   DCAA Location 2 reported that a contractor’s billing system was “inadequate in part”
   because the contractor did not adjust its interim billings for indirect costs due to changes
   in the anticipated or actual final indirect rates. In July 2008, GAO reported that DCAA
   dropped several other deficiencies without documenting adequate supporting rationale in
   the working papers. The first auditor assigned to the audit uncovered the other
   deficiencies, but DCAA management replaced the first auditor with a second auditor who
   dropped the deficiencies with management concurrence. In addition, GAO found that
   DCAA retained the contractor’s direct billing privileges despite issuing an “inadequate in
   part” opinion.

   DCAA Corrective Actions. DCAA did not agree with the GAO findings but elected to
   perform a paid voucher review that would address some of the concerns that the first
   auditor and GAO expressed. On April 9, 2009, DCAA issued the results of the paid
   voucher review under Report No. 4181-2008A11015003. DCAA reported that reliance
   cannot be placed on the contractor’s interim vouchers due to significant deficiencies.

   DoD IG Review of Billing System Audit. We reviewed the report and working papers
   to determine if it complied with GAGAS and related DCAA policy. We noted the
   following:

         Dropped Findings: The working papers do not include sufficient evidence to
          support dropping four findings that the first auditor uncovered. Table 6 below
          discusses the DCAA rationale and the results of our review of the four dropped
          findings.




                                            48
                         FOR OFFICIAL USE ONLY
  Table 6. Working Paper Findings Dropped From Case 11 Audit Report,
                DCAA Rationale and Review Conclusions
     Dropped Finding                   DCAA Rationale               DoD IG Review Results
                                                                  The second auditor did not test
The contractor has no                                             the procedures for compliance
                                   Contractor revised its
procedures for evaluating and                                     before deleting the finding.
                                   procedures for reviewing
monitoring subcontractor                                          DCAA should have reported the
                                   subcontractor accounting
accounting and billing                                            finding until the auditor verified
                                   and billing systems.
systems.                                                          that the contractor implemented
                                                                  the procedure.
                                                                  The working papers do not
                                                                  provide any evidence that the
                                   The impact on the
                                                                  impact to the Government is
The contractor lacks               Government is insignificant
                                                                  insignificant. The first auditor’s
procedures to ensure timely        and Federal Acquisition
                                                                  finding is consistent with DCAA
processing of contract             Regulation does not require
                                                                  policies for auditing billing
administration adjustments.        the contractor to maintain a
                                                                  systems. Therefore, DCAA
                                   schedule of adjustments.
                                                                  should have reported this
                                                                  finding.
                                                                  The working papers did not
                                                                  include sufficient evidence to
                                                                  conclude that offsets were
The contractor lacks               Offsets were infrequent and    “infrequent.” The first auditor’s
procedures to ensure timely        there was no harm to the       finding was consistent with
processing of offsets.             Government.                    DCAA policies for auditing
                                                                  billing systems. Therefore,
                                                                  DCAA should have reported this
                                                                  finding.
                                                                  Testing performed by the second
                                   Testing on contracts done
                                                                  auditor was flawed because it
The contractor does not            by the second auditor found
                                                                  did not include indefinite
withhold the required amount       no problems. Withholdings
                                                                  delivery and indefinite quantity
from the fixed-fee portion of      are not required on
                                                                  contracts in his limited sample
individual delivery orders on      individual delivery orders
                                                                  of five contracts. The first
indefinite delivery and            of indefinite delivery and
                                                                  auditor found that the failure to
indefinite quantity contracts in   indefinite quantity
                                                                  withhold amounts violated the
accordance with contract           contracts per Federal
                                                                  contract terms. Therefore,
terms.                             Acquisition Regulation
                                                                  DCAA should have reported this
                                   16.5.
                                                                  finding.

Because the FAO dropped potentially significant findings, contracting officers should not
rely on the report to make contracting decisions and auditors should not use it as a basis
to reduce testing in related areas.

         Debate over the Significance of Draft Billing System Deficiencies. The
          supervisor and first auditor spent considerable time and resources debating
          whether the first auditor’s draft billing system deficiencies were significant. The
          supervisor directed the auditor to quantify the “effect” on the Government in
          accordance with Contract Audit Manual 10-409(a)(5), “Statement of Condition
                                                 49
                           FOR OFFICIAL USE ONLY
    and Recommendations,” for each draft deficiency. In many cases, however, the
    auditor could not quantify a specific harm to the Government due to the nature of
    the deficiency or because the contractor did not maintain the records necessary to
    quantify the impact. For example, the first auditor found that the contractor had
    no procedures for processing offsets, but the auditor could not determine the
    associated impact because the contractor did not keep records on offsets. Before
    being removed from the audit, the first auditor tried to convince the supervisor
    that the deficiencies nevertheless represented significant internal control
    weaknesses that should be reported as deficiencies in accordance with Contract
    Audit Manual 5-109(d).

    We noted a similar occurrence on another audit performed at DCAA Location 1.
    The DCAA Location 1 FAO manager directed an auditor to change several
    internal control weaknesses from deficiencies to “Suggestions to Improve the
    System” because the auditor could not quantify a specific dollar impact to the
    Government for each deficiency. Unlike reported deficiencies, the contractor is
    not required to take corrective action in response to reported “Suggestions to
    Improve the System.”

    In a March 2008, Memorandum for Regional Directors, DCAA clarified its
    guidance on determining the significance of internal control weaknesses. The
    memorandum clarifies that all internal control weaknesses which result in, or
    could result in, unallowable costs being charged on Government contracts should
    be reported as a deficiency (not a suggestion) unless the potential unallowable
    cost is clearly immaterial. The clarification should help auditors and supervisors
    determine the significance of internal control weaknesses and avoid similar
    disagreements. However, as of July 27, 2009, DCAA had not incorporated the
    clarified guidance in the DCAA Contract Audit Manual.

   Improper Approval of Direct Billing Authority. Even though DCAA reported
    that the billing system was “inadequate in part,” DCAA initially decided to retain
    the contractor’s direct bill authority. The auditor stated in the working papers that
    the decision was based on the “limited impact for the one reported significant
    deficiency ($186,000), the contractor's plans to correct the deficiency, and
    positive results on paid voucher reviews.” This decision did not comply with
    Contract Audit Manual 6-1007.2 which clearly states that a major contractor must
    have an adequate billing system to be eligible for direct billing. Therefore,
    although DCAA rescinded the direct bill authority three months later, DCAA
    should have immediately pulled the direct billing authority after issuing the
    “inadequate in part” opinion.

   No Peer Review. The auditor did not obtain a peer review of this assignment as
    DCAA policy requires.



                                     50
                  FOR OFFICIAL USE ONLY
      DoD IG Review of Corrective Actions. DCAA did not complete its paid voucher
      review in time for us to consider it as part of this review. We will address the adequacy
      of the paid voucher review in a subsequent report.

Recommendation, Management Comments and
DoD IG Response
Recommendations H. 1.                      We recommend the Director, Defense Contract
Audit Agency, promptly incorporate its clarified procedures on reporting internal control
deficiencies into the Defense Contract Audit Agency Contract Audit Manual.

      DCAA Comments. DCAA agreed with the recommendation and will incorporate the
      new internal control guidance in the Contract Audit Manual by September 2009.

      DoD IG Response. DCAA comments were responsive.

Recommendations H. 2.                    We recommend the Branch Manager, Defense
Contract Audit Agency Location 2, immediately rescind Audit Report
No. 4181-2006I11010001 and notify contracting officials who received the report not to
place any reliance on its conclusions.

      DCAA Comments. DCAA agreed with the recommendation and rescinded Audit
      Report No. 4181-2006I11010001 on April 13, 2009. On April 9, 2009, DCAA issued a
      flash report on billing system deficiencies found during its contractor eligibility for direct
      bill assignment. DCAA will perform a full billing system audit in the near future.

      DoD IG Response. DCAA comments were responsive. It should be noted that DCAA
      rescinded Audit Report No. 4181-2006I11010001 on April 9, 2009, not April 13.




                                                51
                            FOR OFFICIAL USE ONLY
I. Labor Floor Check (GAO Case 12)
        DCAA corrective actions are not sufficient to address all concerns identified in the GAO
        (Case 12) and DoD Inspector General reviews of the DCAA labor floor check audit of
        Contractor C. The floor check audit included evidence that salaried employees worked
        uncompensated overtime but did not record all hours worked on their timesheets;
        however, the FAO did not report or pursue this issue until completing a current floor
        check audit. Because the deficiency was not pursued when initially identified, labor costs
        may have been overestimated on proposals or charged improperly to contracts for
        FY 2004 through FY 2007. A serious risk of mischarging costs to Government contracts
        exists when salaried employees do not record all hours worked. DCAA still needs to
        determine the significance of the deficiency during the affected time period.

        Background. The purpose of a labor floor check is to test the contractor’s compliance
        with its timekeeping internal controls and procedures and the reliability of employee time
        records, and to verify time is properly charged. Floor checks are an integral part of the
        audit coverage of labor costs and help ensure the accuracy of labor charges. When no
        significant deficiencies are identified, DCAA guidance directs FAOs to close an
        assignment with a memorandum for record prior to incorporating the results into the final
        incurred cost audit report.

        In a memorandum for record dated September 30, 2005, DCAA concluded no significant
        deficiencies existed in Contractor C’s timekeeping system based on the results of the
        labor floor check. Both the DoD Inspector General and GAO reviews of the labor floor
        check determined that the DCAA conclusions were not adequately supported by the
        working papers, draft conclusions were changed without sufficient documentation, and
        the auditor did not perform sufficient work to support the conclusions. Our review
        specifically noted that the working papers identified a potential significant
        uncompensated overtime deficiency that the FAO did not pursue. Uncompensated
        overtime represents hours worked by salaried employees in excess of an average of
        40 hours per week without additional compensation.

        DCAA Corrective Actions. DCAA is taking various corrective actions that, when
        completed, should resolve all concerns except for the potential impact of uncompensated
        overtime on FY 2004 through FY 2007 charged labor costs. The FAO has added a
        memorandum for record to the integrated recorded information management system
        rescinding the original memorandum for record on Contractor C’s floor check audit
        because a post issuance review disclosed noncompliances with GAGAS. 28 The FAO also
        completed a current year labor floor check, Assignment 4181-2008K10310004, and
        issued an audit report on April 9, 2008, identifying eight significant deficiencies in

28
  A memorandum to the Administrative Contracting Officer is not required because the audit office did not issue a
report but closed the assignment with a memorandum for record in accordance with DCAA guidance.
                                                       52
                                  FOR OFFICIAL USE ONLY
        Contractor C’s labor practices, including a deficiency on recording uncompensated
        overtime. The FAO recommended Contractor C require employees to record all hours
        worked in the timekeeping system to ensure an equitable allocation of labor and indirect
        costs. Our evaluation of the current labor floor check determined the audit report
        conclusions were supported by the working papers and the audit complies with GAGAS.

        Due to the deficiencies DCAA identified in the labor floor check audit, the FAO also
        planned to complete a labor charging audit, Assignment No. 4181-2008K13500001, by
        December 16, 2008, 29 to further review the unrecorded uncompensated overtime
        deficiency and labor charging patterns to determine the potential impact on the
        Government. However, based on discussions with the FAO, this audit is not addressing
        the unrecorded uncompensated overtime issue in FY 2004 through FY 2007 labor costs.
        To adequately determine the impact of uncompensated overtime, DCAA must perform a
        comprehensive analysis of labor time charges which also includes interviewing
        employees over multiple pay periods. Because this issue can impact the review of
        contract costs in various types of DCAA audits, the FAO must also consider the effect of
        uncompensated overtime in the ongoing review of Contractor C’s estimating system (see
        Appendix D, Case 5) and forward pricing audits. DCAA Headquarters has also taken
        multiple corrective actions related to working paper documentation, oversight of audits,
        and the overall work environment that they believe will improve all DCAA audits. See
        Appendix C for additional details. We will evaluate corrective actions once completed to
        ensure DCAA has adequately addressed concerns related to the floor check audit.

        Incurred Cost Audits. DCAA has not identified all necessary actions required to
        determine and mitigate the impact to the Government resulting from Contractor C not
        identifying or recording uncompensated overtime and the DCAA failure to recommend
        that Contractor C correct a potentially significant deficiency in labor estimating and
        charging practices. The FAO did not rely on Contractor C’s labor floor check audit when
        performing the FY 2004 incurred cost audit. Instead, the auditors included additional
        audit steps in their review of labor costs meant to address the uncompensated overtime
        issue. However, it is not clear how a review of labor adjusting entries or a comparison of
        forecasted headcount to actual headcount in different departments would sufficiently
        address unrecorded uncompensated overtime. The FAO did not take exception to labor
        costs in their final report on FY 2004 incurred costs issued on December 26, 2007. The
        FY 2005 though FY 2007 incurred cost audits have not yet been completed. To
        adequately address the issue after the fact may require significantly more effort, but
        DCAA should identify additional audit steps that will do so and ensure that the FAO
        executes them appropriately.




29
  DCAA issued this audit report on April 29, 2009. See DCAA comments to our recommendation for further
information.
                                                    53
                                FOR OFFICIAL USE ONLY
Recommendation, Management Comments, and
DoD IG Response
Recommendation I.                  We recommend the Branch Manager, Defense Contract
Audit Agency Location 2, perform the actions required to identify any negative impact to
the Government as a result of the unrecorded uncompensated overtime issue for FY 2004
through FY 2007.

      DCAA Comments. DCAA agreed with the recommendation. DCAA expected to finish
      performing audit steps identifying any negative impact to the Government as a result of
      the unrecorded uncompensated overtime for the time period 2004 through 2008 by
      August 31, 2009. On April 29, 2009, DCAA reported several deficiencies with the
      contractor's labor system (4181-2008K13500001), including the contractor’s practice of
      not reporting uncompensated overtime. Also on April 29, 2009, DCAA reported that the
      contractor's cost estimate development portion of its estimating system (4181-
      2008K24010001) was inadequate because of several deficiencies, including the
      unreliable estimates based on the contractor not recording all hours worked. Finally, on
      May 1, 2009, DCAA reported that the contractor's accounting and billing systems (4181-
      2008K17740003) were inadequate for accumulating and billing costs under Government
      contracts. In all three reports DCAA recommended the contracting officer pursue a
      suspension of contractor payments.

      DoD IG Response. DCAA comments were responsive.




                                             54
                           FOR OFFICIAL USE ONLY
Appendix A. Scope and Methodology
We conducted this review from August 2008 through April 2009, in accordance with Audit
Policy and Oversight Operating Procedures, which comply with the Quality Standards for
Federal Offices of Inspector General issued by the Council of the Inspectors General on Integrity
and Efficiency. 30 The Operating Procedures require, in part, that personnel are free from
personal and external impairments to independence in their work and that sufficient credible
evidence is compiled to support conclusions and opinions. We examined DCAA audit
documentation for the 2003 through 2007 audits identified in the GAO report “DCAA AUDITS:
Allegations That Certain Audits at Three Locations Did Not Meet Professional Standards Were
Substantiated.”

We interviewed the auditors and examined audit documentation from 1998 through 2008 for
audits performed at the three DCAA Western Region FAOs. We assessed the audits for
compliance with the GAGAS versions 2003 and 2007 as applicable.

We reviewed the corrective actions taken by DCAA in response to the deficiencies identified in
the GAO report. We reviewed current audits that replaced deficient audits for compliance with
GAGAS, memoranda to contracting offices and memoranda for audit files, and interviewed
auditors performing current audits.

We visited two DCAA Western Region FAOs and interviewed 68 audit employees to assess
whether an abusive work environment existed.

For Case 2, we visited the DCAA Western Regional Office located in La Mirada, CA, as well as
a DCAA FAO located in Colorado that is under the cognizance of the DCAA Central Region.
We visited the Air Force Space & Missiles Systems Center, Los Angeles Air Force Base, El
Segundo, CA; and the DCMA Space & Missiles Systems Division, Carson, CA. For Case 3, we
visited the DCMA Santa Ana Contract Administration Service Office, Santa Ana, CA. At these
locations, we interviewed Government procurement personnel and examined audit and contract
records and case files necessary to understand the key issues involved in each case.




30
  The Inspector General Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency combining what were formerly known as the President’s Council on Integrity and Efficiency and the
Executive Council on Integrity and Efficiency. This publication was issued by these two predecessor organizations
in October 2003.
                                                       55
                                  FOR OFFICIAL USE ONLY
Appendix B. Prior Coverage
During the last 5 years, the GAO and the Inspector General DoD have issued 7 reports related to
DCAA. The unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov/,
and unrestricted DoD Inspector General reports can be accessed at http://www.dodig.mil .

GAO
       GAO Report No. GAO-08-857, “DCAA AUDITS: Allegations That Certain Audits at
Three Locations Did Not Meet Professional Standards Were Substantiated,” July 22, 2008

IG DoD
       Inspector General DoD Report No. D-2007-6-006, “Review of the Defense Contract
Audit Agency Quality Control System,” May 1, 2007

       Inspector General DoD Report No. D-2007-6-005, “Congressional Inquiry Concerning
Allegations at the at the Defense Contract Audit Agency Lockheed Martin Rockville Resident
Office,” April 25, 2007

      Inspector General DoD Report No. D-2007-6-001, “Report on Defense Hotline
Compliant Concerning Audit Issues at the Defense Contract Audit Agency Northrop Grumman
Newport News Resident Office,” October 11, 2006

      Inspector General DoD Report No. D-2006-6-003, “Defense Hotline Compliant
Concerning Management Issues at the New York Branch Office,” April 5, 2006

       Inspector General DoD Report No. D-2005-6-005, “DoD Hotline Allegations Concerning
Postaward Audits at the Defense Contract Audit Agency, Boeing Huntington Beach Resident
Office,” May 4, 2005

       Inspector General DoD Report No. D-2005-6-002, “Congressional Inquiry into
Allegations Concerning an Abusive Work Environment at the Defense Contract Audit Agency
New York Branch Office,” March 8, 2005




                                              56
                            FOR OFFICIAL USE ONLY
Appendix C. DCAA-Wide Corrective
            Actions
In response to the GAO report, DCAA Headquarters took multiple corrective actions to the
audits identified as deficient and established an assessment team to determine whether policy
changes and further guidance was necessary to correct possible systemic issues. DCAA
Headquarters also issued a series of memorandums providing policy and guidance and re-
emphasized existing policies addressing procedures for disagreement on audit findings, adequacy
of working paper documentation, participation in integrated product teams, audit quality, report
signature authority, cooperation with investigative agencies, and performance measures. See
details below. We had not assessed the impact of the DCAA-wide corrective actions at the time
of this report. We will evaluate the implementation and results, when possible, during the
FY 2009 DCAA peer review and in future oversight reviews.

DCAA Corrective Actions Related to Agency Management
      Cooperation. On August 8, 2008, the DCAA Director issued a memorandum that GAO
and DoD Inspector General had various in-process and future reviews planned and stressing that
all DCAA employees cooperate fully with reviewers.

      On September 12, 2008, the DCAA Director issued a memorandum to all employees
emphasizing the DCAA policy encouraging employees to cooperate with any investigations
conducted by representatives of Government investigative authorities.

       Assessment Survey. DCAA Headquarters notified all DCAA employees on
September 29, 2008, that the Office of Personnel Management would conduct a DCAA-wide
organizational assessment survey. The assessment results would address DCAA work
environment, highlight risks, and pursue needed improvements. DCAA encouraged all
employees to participate in the survey and assured them the responses would be collected and
processed in a confidential manner.

        DCAA Action Plan. DCAA Headquarters issued a memorandum on October 1, 2008, to
all DCAA employees providing an update to the DCAA action plan in response to the GAO
report. The updated plan included the progress to date on the assessment of:

          staff requirements,
          performance measures,
          participation in integrated product teams,
          report signature authority,
          organizational assessment survey,
          realignment of the regional quality assurance function, and
          the DCAA-wide organizational assessment.

                                               57
                            FOR OFFICIAL USE ONLY
As of the date of the memorandum, DCAA had requested additional staff from the Under
Secretary of Defense (Comptroller)/Chief Financial Officer and was working with the DoD to
address staffing needs. In addition, DCAA realigned the regional quality assurance function to
DCAA Headquarters and was planning the DCAA-wide organizational assessment addressing
improvements in the Strategic Plan, staffing allocations, ethics, and leadership to be completed
by the end of 2009. DCAA issued memoranda providing guidance on participation in integrated
product teams, report signature authority, and performance measures (see section below for more
information).

      Organizational Realignment. On December 31, 2008, DCAA issued Memorandum for
Regional Directors 08-DQA-013(R), revising the DCAA Instruction 7640.20, “DCAA Quality
Assurance Program.” The instruction’s revisions included:
            the realignment of the Regional Quality Assurance function as a Headquarters
             element,
            the institution of a process for the Quality Assurance Division to perform followup
             reviews,
            the requirement for Regional Directors and the Field Detachment Director to develop
             comprehensive action plans for those FAOs that were determined to have an
             assignment lacking professional judgment in the headquarters-led internal quality
             assurance review, and
            the incorporation of a provision to include appropriately cleared independent
             reviewers as part of the Quality Assurance teams reviewing Field Detachment FAOs.

Corrective Actions Resulting in New Policies
        Participation in Integrated Product Teams. DCAA Headquarters issued
Memorandum for Regional Directors 08-PAS-024(R), on August 5, 2008, discontinuing DCAA
participation in integrated product team and other teaming arrangements. DCAA directed the
FAOs to forward the guidance to the contracting officers notifying them that DCAA would no
longer participate in integrated product teams, but would perform audits of a contractor’s
management-approved final proposals upon the contracting officer’s request.

        Signature Authority. Based on recommendations from the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DCAA revised Regulation 5600.1, “Delegation of
Signature Authority for Audit Reports and Other Audit Related Documents,” to state that FAO
managers could not re-delegate signature authority for audit reports, memorandums issued to
close or cancel assignments, DCAA Form 1s 31 and rate agreement letters. DCAA issued
Memorandum for Regional Directors 08-D-008(R) on August 29, 2008, announcing the change
in policy.


31
  The purpose of a DCAA Form 1 is to initiate Administrative Contracting Officer action in rendering a final
decision on the questioned costs associated with reimbursement.
                                                        58
                                  FOR OFFICIAL USE ONLY
The FAO managers were also reminded that as the end of FY 2008 approached, managers were
not to issue reports just to meet fiscal year due dates. Before issuing a report, sufficient audit
work must be performed and differences of opinions on draft audit issues had to be resolved.

        Performance Metrics. In a memorandum to DCAA employees, 08-D-009(R), dated
September 30, 2008, DCAA Headquarters eliminated 18 of their prior performance measures,
developed 8 new performance measures, maintained 1 measure but only at the agency level, and
provided 3 informational (no goals) performance measures. DCAA reassessed the new
performance measures through focus groups and, for various reasons, decided not to change any
measures but to reassess them again after the one year mark when more data would be available.
DCAA reemphasized its policy on zero-based budgeting and appropriate consideration of budget
revisions when the scope changes. The DCAA Contract Audit Manual Chapter 3, “Audit
Planning,” Section 103(d) was modified on December 4, 2008, to reflect the changes.

        Internal Control Deficiencies, Weakness, and Audit Opinions. DCAA issued
Memorandum for Regional Directors 08-PAS-043(R), on December 19, 2008, clarifying what
constitutes a significant deficiency/material weakness. In addition the Memorandum for
Regional Directors established new guidance on reporting audit opinions on contractors’ internal
control systems; audit reports on contractors’ internal controls that report any significant
deficiencies/material weaknesses will include an opinion that the system is inadequate. DCAA
will no longer report “inadequate in part” opinions.

        Limited Scope Audit Reports on Internal Controls. DCAA issued Memorandum for
Regional Directors 08-PAS-041(R), on December 19, 2008, requiring that when internal control
deficiencies are identified in other than an internal control audit (e.g., forward pricing proposal
audit) the FAOs should not wait to perform a full system review to report the deficiencies. The
FAOs should (1) issue a flash report to report the potential deficiencies, and (2) establish a
separate limited scope audit assignment to review the control activities related to the applicable
control objective. The limited scope audit assignment should be completed as soon as possible
(preferably within 30 days) after the condition is identified. When the control activities audited
are not adequate to ensure that the control objective is accomplished, the audit report will report
that the system is inadequate and recommend that the contracting officer disapprove the affected
portions of the system (when applicable) and pursue suspension of a percentage of progress
payments or reimbursement of costs.

       Denial of Access to Records Due to Contractor Delays. On December 19, 2008,
DCAA issued Memorandum for Regional Directors 08-PAS-041(R), providing guidance for
when the contractor does not provide documentation in support of an audit in a timely manner.
The Memorandum for Regional Directors requires the auditor to:
       (1) follow the procedures for denial of access to records,
       (2) take appropriate actions to effect a suspension or withhold of any unsupported costs
           billed to the Government until the data is received and a determination is made
           regarding the allowability of the costs, and


                                                59
                             FOR OFFICIAL USE ONLY
       (3) question the unsupported costs in the audit report if the supporting documentation is
           not received prior to completion of fieldwork.

The guidance further instructs the auditor to follow the procedures even when the contractor
concurs to the questioned costs based on the lack of support. When the records are alleged to
have been destroyed, lost, or stolen, auditors should obtain a written statement from appropriate
high-level contractor management (i.e., at a level no lower than the business segment vice
president or chief financial officer) to that effect with a detailed explanation of the
circumstances.

Emphasis of Existing DCAA Policy
         Handling Disagreements on Audit Findings. DCAA issued Memorandum for
Regional Directors 08-PAS-022(R) on July 31, 2008, to re-emphasize and clarify existing
guidance on DCAA procedures on disagreements between management and auditors regarding
audit findings. Unresolved differences of opinion between supervisors and auditors should be
elevated to the FAO manager, then to the RAM, and ultimately to the Deputy Regional Director,
when necessary. When the difference cannot be reconciled and management changes the audit
results, management and auditor should document the disagreement, maintain the original audit
documentation in the superseded file, and document the change with support for the change in
the audit file.

       Working Paper Documentation. DCAA issued Memorandum for Regional Directors
08-PAS-023(R) on August 1, 2008, to reemphasize GAGAS requirements and Contract Audit
Manual guidance on what constitutes proper audit documentation. In addition, the staff was
reminded that the DCAA CMTL Course 1269, “Working Paper Documentation,” provides an
overview of audit documentation requirements.

        Reemphasizing Quality. DCAA Headquarters issued a memorandum to all DCAA
employees on August 6, 2008, designating August 2008, as audit quality month and directing the
FAOs to hold a stand-down day to facilitate open discussions on audit quality and to address
issues such as the risk-based audit approach.




                                                60
                             FOR OFFICIAL USE ONLY
Appendix D. DCAA Corrective Actions for
            Specific Cases
DCAA Headquarters has taken multiple corrective actions related to working paper
documentation, oversight of audits, and the overall work environment that they believe will
improve all DCAA audits. See Appendix C for additional details. In our opinion, DCAA has
completed actions for Cases 1 and 13 necessary to address the specific concerns identified in the
GAO report. Actions are completed on Case 5 but still need to be reviewed to verify proper
implementation. Actions are still in process for Cases 6 and 7. We will evaluate all corrective
actions once completed to ensure DCAA has adequately addressed the areas of concern.

GAO Case 1-Follow-on Survey of Contractor A’s Estimating
System
GAO and DoD Inspector General reviews of Contractor A’s 32 estimating system audit concluded
the audit did not comply with GAGAS because working paper documentation did not support the
audit report conclusions. In addition, GAO identified an impairment to auditor independence.
DCAA has taken various corrective actions that should resolve all concerns.

The FAO completed two subsequent estimating system audits, under Assignment Nos. 4461-
2003B24010001 and 4461-2006B24010001 dated September 24, 2003 and September 13, 2007,
respectively. We reviewed the only audit still in use by Government representatives,
Assignment No. 4461-2006B24010001, and determined it complied with GAGAS. The FAO
has also added a memorandum for record to integrated recorded information management system
documenting that a post issuance review of the audit disclosed noncompliances with GAGAS;
however, a letter was not issued to the Administrative Contracting Officer as the original audit
had already been superseded by a more current audit.

The impairment to independence resulted because the FAO participated in an IPT that included
reviewing Contractor A’s draft labor estimates. Due to the independence concerns, DCAA
Headquarters issued Memorandum for Regional Directors 08-PAS-024(R) dated August 5, 2008,
effective on that date, discontinuing all participation in integrated product teams. DCAA
Headquarters also issued Memorandum for Regional Directors 08-PAS-026(R) on August 11,
2008, establishing the guidelines for when DCAA can provide audit services, as necessary, to
assist the contracting officer in determining a fair and reasonable price without being a team
member of an integrated product team. The guidelines included:

               a contracting officer requests the audit services;
               the audit covers a “management approved” proposal or part of a proposal, and not a
                draft proposal; and


32
     Contractor A is a major aerospace company that is among the five largest defense contractors.
                                                           61
                                     FOR OFFICIAL USE ONLY
            an audit report is issued reflecting an independent opinion that is not influenced by
             the contractor or Government officials.

GAO Case 5-Estimating System Audit of Contractor C
GAO and DoD Inspector General reviews of the DCAA audit of Contractor C’s estimating
system concluded the audit did not comply with GAGAS because working paper documentation
did not support the audit report conclusions. DCAA took various corrective actions that, if
properly completed, should resolve all concerns. The FAO notified the DCMA Administrative
Contracting Officer on June 27, 2008, that they should no longer rely on the original audit report.
The FAO had completed its audit of the cost estimating development portion of the contractor’s
estimating system and issued its report (4181-2008K24010001) on April 29, 2009. DCAA
reported the contractor estimating system as inadequate and recommended the contracting officer
disapprove the system and pursue withholds of contract payments.

GAO Case 6-Accounting System Audit of Contractor D
GAO and DoD Inspector General reviews of the DCAA audit of Contractor D’s 33 accounting
system concluded the audit did not comply with GAGAS because working paper documentation
did not support the audit report conclusions. DCAA is taking various corrective actions that,
when completed, should resolve concerns.

The FAO estimated completing a full accounting system review under Assignment No. 4181-
2008I17740002, by early September 2009, which is to include steps to address the miscoded
corporate cost deficiency identified but not pursued during the noncompliant audit. Additionally,
the FAO manager explained that auditors would also followup on potentially miscoded costs
during the incurred cost audits for FY 2005 through FY 2007. The FAO notified the
Administrative Contracting Officer on September 18, 2008 that they should no longer rely on the
original audit report that was rescinded.

GAO Case 7-Cost Accounting Standard 403 Compliance Audit of
Contractor D
GAO and DoD Inspector General reviews of the DCAA audit of Contractor D’s compliance with
CAS 403, “Allocation of Home Office Expenses to Segments,” concluded the audit did not
comply with GAGAS because the working paper documentation did not support the audit report
conclusions. In addition, GAO noted the FAO issued two CAS 403 audit reports that were
contradictory. DCAA is taking various corrective actions that, when completed, should resolve
concerns.


33
  Contractor D is the corporate office of a publicly traded engineering, construction, maintenance, and project
management company. For calendar year 2006, Contractor D reported over $14 billion in revenue, including
$2.9 billion in revenue from Government business.
                                                         62
                                   FOR OFFICIAL USE ONLY
The FAO is addressing the potential deficiencies identified, but not pursued in the noncompliant
GAGAS audit, under multiple DCAA audit assignments. On October 24, 2008, the FAO issued
Report No. 4181-2008I1920006, finding that the contractor was noncompliant with CAS 403
under 8 conditions, including noncompliant allocations of various expenses. The FAO also plans
to issue a CAS 416, “Accounting for Insurance Cost,” compliance audit, Assignment No. 4181-
2008I194160000, by February 19, 2010. The FAO is also addressing the miscoded corporate
cost issue in an accounting system audit, Assignment No. 4181-2008I17740002. 34 The issue of a
Contractor D segment adding general and administrative expenses to corporate costs being
passed through the segment to other segments is being addressed under Assignment No. 4411-
2006N11070001 which the DCAA FAO cognizant of that segment estimates will be issued in
February 2010.

The FAO issued two audit reports on compliance with CAS 403 that partially contradicted each
other. The FAO issued a report on December 30, 2005, concluding that Contractor D complied
with CAS 403 from January 1, 2004 through September 15, 2005. However, on September 21,
2007, the FAO issued another report concluding Contractor D was noncompliant with CAS 403
from January 1, 2004 though December 31, 2004. The reports were contradictory, in part,
because the second report covered 12 months also covered by the first report. As a result of the
GAO and DoD Inspector General reviews, the FAO issued a September 18, 2008, memorandum
notifying the Administrative Contracting Officer that the December 30, 2005, audit report was
being rescinded, and should no longer be relied on. This action nullified the issue of the
contradictory reports. However, because multiple DCAA audits can identify noncompliances
that could result in this type of situation recurring, DCAA Headquarters is considering adjusting
the standardized final audit report language for CAS noncompliance audit reports.

GAO Case 13-Cost Accounting Standard 418 Compliance Audit
of Contractor G
GAO review of the DCAA Location 2 audit of Contractor G’s CAS 418 Assignment No. 4181-
2006A19418002 concluded the audit did not comply with GAGAS because working paper
documentation did not support the audit report conclusion.

The FAO concurred with the GAO findings and completed a new CAS 418 audit assignment
No. 4181-2008D19418002. On June 4, 2008, the FAO issued its audit report stating that
Contractor G complied in all material respects with the requirements of CAS 418. On
September 15, 2008, the FAO notified DCMA that they should no longer rely on the original
Audit Report No. 4181-2006A19418002. Based on our review of DCAA Location 2 corrective
actions, we concluded that the actions are adequate and compliant with GAGAS.




34
     This is the same assignment identified in the GAO Case 6-Accounting System section of our report.
                                                          63
                                    FOR OFFICIAL USE ONLY
Appendix E. Senate Request




                   64
          FOR OFFICIAL USE ONLY
         65
FOR OFFICIAL USE ONLY
Appendix F. Answers to Senate Committee
            on Armed Services Questions
By letter dated July 24, 2008, (see Appendix E) the Chairman and Ranking Member, Senate
Armed Service Committee, asked us to determine whether two findings in the GAO report were
supported by evidence. This appendix summarizes the results of our review regarding those
findings.
Finding 1: “…contractor officials and the DoD contracting community improperly influenced
the audit scope, conclusions, and opinions of three audits…” The GAO attributed this statement
to Cases 1, 2, and 8. We found information supporting the GAO statement in one case (Case 2),
but did not find supporting information for the other two cases (Cases 1 and 8).
        Case 2. We determined in Case 2 that contractor officials and the DoD contracting
        community improperly influenced the scope, conclusions, and opinions of the audit. Our
        conclusions based on our review of Case 2 are contained in Finding B of this report. See
        pages 17 and 18 under “Actions Demonstrating Impairment of Independence,” for
        discussion of this issue.
        Case 1. We determined in Case 1 that contractor officials and the DoD contracting
        community 35 did not improperly influence the audit scope, conclusions, and opinions.
        DCAA conference notes documented that the contractor’s representative “threatened”
        that if the report cited an “inadequate in part” opinion, the representative would escalate
        it to the highest level possible of the Government. Based on our experience, this type of
        response from contractors is not unusual, and we did not find evidence to indicate the
        contractor’s “threat” impacted the review.
        We did find that DCAA, by its own actions, impaired its independence. As part of an
        estimating system followup review, DCAA reviewed labor estimates for which it had
        previously provided feedback to the contractor on the draft versions as part of an
        integrated product team. In essence DCAA was reviewing its own work and had become
        part of the contractor’s management control process contrary to the GAGAS
        independence standards. Although, we substantiated GAO’s finding of impairment to
        DCAA independence, the corrective actions taken by DCAA relating to participating in
        integrated product teams in response to Case 1 should resolve the independence concerns.
        Further details on Case 1 are contained on pages 61 and 62 of Appendix D of this report.
        Case 8. Our review of 18 of 62 price proposal audits performed by DCAA 36 at Location
        3 did not confirm statements provided to GAO by two former supervisory auditors
        concerning undue pressure or influence by contracting officers causing external

35
   DCAA is organizationally independent from the DoD contracting community, which consists of Military
Department and Defense agencies acquisition and contracting officials.
36
   We reviewed the 18 audits performed by trainee auditors because GAO reported a concern that the trainee
auditors at this location had not been properly supervised.
                                                       66
                                  FOR OFFICIAL USE ONLY
       impairments to DCAA auditors. The former supervisors cited short time frames of 20 to
       30 days for completion of forward pricing audits as affecting the supervisors’ ability to
       comply with GAGAS. The audit office performed 7 of 18 audits within 30 days.
       Seventeen of the 18 price proposal audits we reviewed did not comply with GAGAS.
       However, the GAGAS noncompliances did not appear to directly relate to the number of
       days allowed for audit completion.
Finding 2: “…DCAA managers took actions against staff at two locations, attempting to
intimidate auditors, prevent them from speaking with investigators, and creating a generally
abusive work environment.”
       We found one documented intimidating management action addressed to one individual.
       As described in Finding A, pages 4 – 10, we obtained sworn testimony from 68 current
       and former employees at the two locations of interest (97% of the employees). The only
       evidence we obtained regarding DCAA management preventing staff from speaking with
       investigators was the August 2007 memorandum addressed to one person. The
       memorandum cautioned that person not to share documentation or information for private
       purposes outside DCAA including pursuit of any complaints or other proceedings in any
       forum. That memorandum, which we considered both intimidating and substantively
       flawed, has been rescinded. No other employee told us that DCAA management asked
       that they not speak with investigators; directed them to withhold information; or
       prevented them from fully cooperating with investigators.
       However, some employees told us they witnessed unprofessional behavior; felt undue
       time pressure because of unreasonable performance measures; and had their audit
       findings changed. We concluded that these factors in the work environment may have
       contributed to deficient audits. Although we attempted to determine if these conditions
       constituted an abusive work environment, we could not find a consistent criteria or
       definition for what conditions reflect a “generally abusive” work environment. Despite
       the lack of consistent criteria or definition, some employees may have considered the
       work environment conditions to be abusive.




                                               67
                             FOR OFFICIAL USE ONLY
Defense Contract Audit Agency Comments




                      69
             FOR OFFICIAL USE ONLY
         70
FOR OFFICIAL USE ONLY
         71
FOR OFFICIAL USE ONLY
         72
FOR OFFICIAL USE ONLY
         73
FOR OFFICIAL USE ONLY
         74
FOR OFFICIAL USE ONLY
         75
FOR OFFICIAL USE ONLY
         76
FOR OFFICIAL USE ONLY
         77
FOR OFFICIAL USE ONLY
         78
FOR OFFICIAL USE ONLY
         79
FOR OFFICIAL USE ONLY
         80
FOR OFFICIAL USE ONLY
Department of the Air Force Headquarters Space &
Missile Systems Center Comments




                       81
              FOR OFFICIAL USE ONLY
         82
FOR OFFICIAL USE ONLY
         83
FOR OFFICIAL USE ONLY
         84
FOR OFFICIAL USE ONLY
         85
FOR OFFICIAL USE ONLY
         86
FOR OFFICIAL USE ONLY
         87
FOR OFFICIAL USE ONLY
Defense Contract Management Agency Comments




                      88
             FOR OFFICIAL USE ONLY
         89
FOR OFFICIAL USE ONLY
